<html>
<title> - THE DEVASTATING CRISIS IN EASTERN CONGO</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                THE DEVASTATING CRISIS IN EASTERN CONGO

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 11, 2012

                               __________

                           Serial No. 112-191

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
77-362                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6b1a6b996b5a3a5a2beb3baa6f8b5b9bbf8">[email&#160;protected]</a>  

                                 ______

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, Florida
JEFF FORTENBERRY, Nebraska           BEN CHANDLER, Kentucky
MICHAEL T. McCAUL, Texas             BRIAN HIGGINS, New York
TED POE, Texas                       ALLYSON SCHWARTZ, Pennsylvania
GUS M. BILIRAKIS, Florida            CHRISTOPHER S. MURPHY, Connecticut
JEAN SCHMIDT, Ohio                   FREDERICA WILSON, Florida
BILL JOHNSON, Ohio                   KAREN BASS, California
DAVID RIVERA, Florida                WILLIAM KEATING, Massachusetts
MIKE KELLY, Pennsylvania             DAVID CICILLINE, Rhode Island
TIM GRIFFIN, Arkansas
TOM MARINO, Pennsylvania
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York          THEODORE E. DEUTCH, 
ROBERT TURNER, New York                  Florida<greek-l>As of 6/19/
                                         12 deg.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Johnnie Carson, assistant secretary, Bureau of 
  African Affairs, U.S. Department of State......................    10
Mr. Steve Hege (former member United Nations Group of Experts on 
  the Democratic Republic of the Congo)..........................    32
Mr. John Prendergast, co-founder, The Enough Project.............    47
Mr. Mvemba Dizolele, Peter J. Duignan Distinguished Visiting 
  Fellow, Hoover Institution, Stanford University................    58

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Karen Bass, a Representative in Congress from the 
  State of California:
  Letter submitted to President Obama, dated December 10, 2012, 
    from Members of Congress.....................................     5
  Letter submitted to President Obama, dated December 10, 2012, 
    from various organizations...................................     8
The Honorable Johnnie Carson: Prepared statement.................    14
Mr. Steve Hege: Prepared statement...............................    36
Mr. John Prendergast: Prepared statement.........................    51
Mr. Mvemba Dizolele: Prepared statement..........................    62

                                APPENDIX

Hearing notice...................................................    82
Hearing minutes..................................................    83
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, and Human Rights: Statement from World 
  Relief.........................................................    84


                THE DEVASTATING CRISIS IN EASTERN CONGO

                              ----------                              


                       TUESDAY, DECEMBER 11, 2012

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                  and Human Rights,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:16 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. Good 
afternoon. I apologize for the lateness in starting. Today's 
hearing will examine U.S. policy regarding the conflict in the 
Democratic Republic of the Congo. This conflict was exacerbated 
by Rwanda's intervention in neighboring Eastern Congo as 
documented by the release of three United Nations reports this 
year. These reports confirmed Rwanda's support of militia who 
have ravaged and continue to plague this region. The State 
Department was unavailable to testify at our September 19th 
hearing on this issue, and the subcommittee promised at that 
time the follow-up when State was available to testify.
    In the aftermath of the 1994 genocide, successive U.S. 
administrations have turned a blind eye to reports of Rwandan 
plundering of resources from the DRC and support for rebels who 
have devastated Eastern Congo and its people. It seems that 
guilt over the Clinton administration's colossal failure 
responding effectively, as they did not, to the genocide in 
Rwanda, has led to subsequent U.S. administrations being 
reluctant to criticize the Government of Rwanda.
    With these U.N. reports on the government's behavior in the 
DRC, we must overcome our regret over what happened 18 years 
ago. As an NGO letter to President Obama points out, the United 
States is now out of step with our European allies, who have 
cut aid to Rwanda because of their interference in the DRC, as 
recommended by the U.N. Group of Experts in their recent 
reports. The Group of Experts also recommended imposing 
sanctions on responsible Rwandan officials, including the 
Defense Minister.
    Additionally, the Government of the DRC has failed to 
ensure that its military adequately provides security for its 
citizens. In fact, the National Forces of the Democratic 
Republic of the Congo is alleged to be a perpetrator of human 
rights violations in the East. Security sector reform is 
critical in the DRC, and the United Nations Organization 
Stabilization Mission in the DRC, or MONUSCO, has not been able 
to completely train military elements that too often terrorize 
their own people instead of protecting them.
    At this point, it is vital to understand what the 
administration intends to do about the U.N. reports on Rwanda's 
violations of the arms embargo, on nonstate groups in Eastern 
DRC, and how this impacts U.S. relations with Rwanda. 
Furthermore, we must know how the administration intends to 
deal with the DRC Government in light of its deficiencies in 
security sector reform. This hearing will also take a 
comprehensive look at who was responsible for the insecurity in 
Eastern Congo beyond the two governments and the militias.
    Most attention is being paid to the M23 rebel movement in 
Eastern Congo, and justifiably so, in light of their recent 
seizure of territory and overall destructive impact on the 
people of Eastern Congo. However, there are reportedly as many 
as two dozen armed groups terrorizing Congolese in this region. 
According to a November 2012 report from Oxfam, Commodities of 
War, nine of these militias are believed to be the most 
prominent. They range from those with a focus on Rwanda or 
Uganda to those that were formed in response to the flight of 
perpetrators of the 1994 genocide in Rwanda to the DRC, or 
those singly focused on the DRC itself.
    Whatever the reason for their founding, these militias have 
terrorized the people of Eastern Congo and the DRC as a whole. 
We must identify their support base and then the flow of arms 
and other aid that enables their ongoing reign of terror.
    According to the U.S. Office for Coordination of 
Humanitarian Affairs, insecurity in Eastern Congo has displaced 
approximately 2.4 million people nationwide, especially in the 
East. Despite long-standing conflict in Eastern Congo, the OCHA 
estimates that the majority of displaced persons typically 
return to their areas of origin within 6 to 18 months of their 
initial displacement and require minimal return assistance. 
While that may be true, it does not account for the kind of 
life Congolese will have once they return to their homes. Women 
continue to be targeted for gross abuse in the DRC. A study 
that recently appeared in the American Journal of Public Health 
concluded that an average of 48 women and girls are raped every 
hour in the country.
    So as with our February 2nd and September 19th hearings on 
the DRC this year, more than 100 females in DRC will have been 
raped before our hearing today ends. Their rejection by their 
families, husbands, and communities casts a cloud over their 
future effort to recreate communities destroyed by the militias 
in the DRC. This is an issue that must be addressed by the 
Congolese themselves, of course, with any help that can be 
provided from the outside, sooner rather than later.
    Since our hearing in September, M23 has made significant 
gains in territorial control, occupying Goma for 10 days while 
moving southward potentially toward the South Kivu town of 
Bukavu. However, international pressure played a major role in 
the group ending its advance southward and withdrawing from 
Goma by early December. DRC President Joseph Kabila's 
government and the M23 rebels reportedly have agreed to peace 
talks in Kampala sponsored by the Government of Uganda. There 
have been peace talks and peace accords in the DRC before, and 
they didn't hold, as we all know. Will this effort achieve a 
lasting peace?
    The DRC is home to an abundant mineral wealth, including 70 
percent of the world's coltan used to make vital components of 
cell phones and other electronic equipment, 30 percent of the 
world's diamond reserves, and vast deposits of cobalt, copper, 
and bauxite. Unfortunately, these natural resources have 
attracted international looters and fueled civil war. Now oil 
has been discovered in Eastern Congo. Can a way be found to 
prevent the DRC's blessings from being turned into curses?
    The tragic genocide in Rwanda in 1994 has had lasting 
repercussions in the DRC, but since the 1880s resentment over 
the perceived influx of people considered foreigners in Eastern 
DRC has contributed to conflict in this region, including two 
regional wars. Various leaders of the region have used this 
antipathy for political purposes, pitting their supporters 
against their perceived opponents. Can the interethnic problems 
in the DRC and its neighbors be finally resolved so that a 
lasting peace among all the people of the DRC can be achieved?
    Our witnesses today are well positioned to address 
questions regarding a path forward toward sustainable peace in 
the DRC and the obstacles that lie in that path. It is time now 
to find a way to bring an end to the horrific suffering of the 
people of the Democratic Republic of the Congo. I yield to my 
friend and colleague Ms. Bass for her opening.
    Ms. Bass. Thank you very much, Mr. Chair, and thank you for 
your leadership on this issue and also for holding this 
important hearing. While this committee held a hearing on the 
DRC not too long ago, recent events in Eastern Congo motivate a 
closer examination of this current crisis. I want to especially 
thank Assistant Secretary, Ambassador Carson, and our other 
witnesses for offering testimony at today's hearing.
    I would also like to commend many of you sitting in the 
audience for your tireless work toward peace and justice for 
those affected by the past and current crises. Your concerns 
have been heard, and this committee will continue to elevate 
the status of the DRC so it receives the international 
attention needed to bring about lasting peace and stability. 
Myself, members of this committee, and our colleagues in the 
Senate are deeply concerned with on-the-ground reports of human 
rights violations, forced rape, the recruitment of child 
soldiers, and the involvement of DRC's neighbors in the Eastern 
region.
    I want to stress that there is a great need for the 
international community to work in common interest toward the 
resolution of a crisis that goes well beyond the M23. We must 
not look at the current M23 crisis in some civil, political, or 
military vacuum. For a credible, reasonable, and long-standing 
stability to take hold, I urge that transparent and accountable 
processes be put in place that can address reforms at all 
levels.
    I want to be clear on this point. If we are to see an end 
to the violence and instability, then holistic reforms are 
desperately needed at all levels, including politically and 
economically. We must also see a dramatic reevaluation of the 
social constraints to reforms in civic engagement. The results 
of the deeply flawed 2011 election lay bare the significant 
challenges that must be addressed if we are to see a dramatic 
and positive change of course.
    Ambassador Carson, I will be interested to hear what new 
steps the State Department will take to address these very 
serious challenges that remain unaddressed.
    Let me remind the committee what is at stake. Continued 
failure to achieve stability has torn families apart and shown 
clearly the base actions of those who have no concern for life 
and have not been brought to justice. For too long, the DRC has 
been ravaged by instability and war. For two decades, Eastern 
Congo has been under siege by armed groups. Yesterday it was 
the National Congress for the Defence of the People, today it 
is M23. What will it be tomorrow? Will we stand by and allow a 
fragile peace to be held together by empty promises? The 
violence, the rapes, the child soldiers, the murders must be 
brought to an end.
    What is most troubling about this recent conflict is the 
documented involvement by neighboring governments and the DRC's 
territorial integrity. While the Rwandan and Ugandan 
Governments vehemently deny such involvement, a growing body of 
evidence raises questions that suggest otherwise. I close these 
remarks where I began, urging that all efforts be put toward 
establishing mechanisms that lay the foundation for lasting 
peace, not only in the DRC, but throughout the region. I ask 
that a letter being sent to President Obama be submitted for 
the record. Circulated by Representative McDermott, this letter 
calls for the establishment of a special U.S. envoy, U.S. 
Envoy, and U.N.--and African Union envoy. The purposes of these 
roles should be clear, to present a group of international 
stakeholders that can provide critical and balanced political 
pressure toward a unified policy to address all aspects of this 
regional crisis.
    Also worth mentioning is a second letter to be sent to 
President Obama and Secretary Clinton signed by organizations, 
including Africa Faith and Justice Network, The Enough Project, 
Global Witness, Open Society Foundations, Refugees 
International, among many others.
    [The letters referred to follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

    Ms. Bass. In addition to calling for special envoys, this 
group boldly calls for global leadership to engage 
constructively in a comprehensive political process. Thank you, 
and I look forward to today's testimonies.
    Mr. Smith. Thank you very much, my friend, Ms. Bass. Any 
other panelists like to make an opening comment? Ms. Buerkle? 
Yes, Mr. Turner?
    Mr. Turner. Thank you, Mr. Chairman. Just I would like to 
raise a point. Throughout the conflict, the mines remain open, 
minerals, gems, rare earth provide the financing for the 
conflict, I think the motivation for a great deal of it. Who is 
buying this material, and what do we know about the chain of 
both dollars and material on an international basis? And is 
there anything that we or the U.N. or the African Union are 
doing to choke this off? That is it. Thank you, Mr. Chairman.
    Mr. Smith. Mr. Turner, thank you very much. I now introduce 
our witness from the U.S. Department of State, Ambassador 
Johnnie Carson, serves as Assistant Secretary of State in the 
Bureau of African Affairs, a position he has held since May 
2009. Ambassador Carson has a long and distinguished career in 
public service, over 37 years in the foreign service, including 
time as our Ambassador to Kenya, Uganda, and Zimbabwe. 
Ambassador Carson has also served as the staff director of this 
subcommittee many, many years ago, and as a Peace Corps 
volunteer in Tanzania. Ambassador Carson is the recipient of 
numerous awards for his service from the U.S. Department of 
State. Mr. Ambassador, the floor is yours.

STATEMENT OF THE HONORABLE JOHNNIE CARSON, ASSISTANT SECRETARY, 
      BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Carson. Chairman Smith, Ranking Member Bass, members of 
the committee, thank you for the very kind invitation to 
testify before the subcommittee today on the crisis unfolding 
in the Eastern Democratic Republic of the Congo, the DRC.
    As you know, the security and humanitarian situation in the 
Congo is the most volatile in Africa today. An estimated 5 
million people have died in the years since the second regional 
war began in that country in 1997-1998, and millions more have 
been forced to flee their homes. The people of North and South 
Kivu provinces, in particular, have faced repeated cycles of 
conflict and shocking atrocities. The November 20th fall of 
Goma to the M23 rebel group provided a stark reminder that in 
spite of the international community's major investments in 
humanitarian aid and peacekeeping, the underlying causes of the 
recurring conflicts in the Eastern DRC remain unresolved.
    The Congolese Government has failed to provide effective 
security, governance, and services in the Eastern provinces, 
and political and economic tensions persist between the DRC and 
its eastern neighbors, particularly Rwanda. Since the M23 
rebellion erupted last spring, the United States has worked 
closely with international and regional partners to mobilize a 
comprehensive response aimed at preventing a further 
deterioration of the situation. Secretary Clinton, Ambassador 
Rice, and Under Secretary Wendy Sherman have spoken or met with 
senior Congolese, Rwandan, Ugandan, and U.N. officials to 
advocate for a rapid and peaceful resolution to this crisis.
    In the U.N. Security Council, we have taken action to 
ensure that five of the M23's most abusive commanders are now 
under targeted sanctions. We have also stressed the need to 
hold accountable all of those who commit human rights abuses 
and atrocities, and I myself traveled to the DRC, Rwanda, and 
Uganda between November 24 and 28 with my British and French 
counterparts to deliver a clear and common message that the 
Congolese, Rwandan, and Ugandan Governments must work together 
to stop this crisis and to work toward a sustainable resolution 
of underlying issues.
    All three governments reiterated to us their commitment to 
these goals. We also stressed that there should be no impunity 
for senior M23 leaders who are under ICC indictment or 
international sanctions for human rights abuses. The M23 would 
not be the threat that it is today without external support, 
and we will continue to discourage outside parties from 
providing any assistance to the M23 movement. There is a 
credible body of evidence that corroborates key findings of the 
Group of Experts report concerning Rwandan Government support 
to the M23, including military, logistical, and political 
assistance.
    The British Government has recently indicated that it 
shares this assessment. We do not have a similar body of 
evidence that Uganda has a government policy of support for the 
M23. Based on this evidence, we have repeatedly pressed Rwanda 
to halt and prevent any and all forms of support to Congolese 
armed groups.
    Looking forward, we expect all parties, including Rwanda, 
to cease any support to M23 and other armed groups, abide by 
the Kampala Accords of November 21 and 24, and to work 
constructively with its neighbors and the international 
community and take affirmative steps to end impunity for M23 
commanders responsible for human rights abuses in order to 
reach an acceptable political agreement.
    We ask the Government of Uganda to also ensure that 
supplies to the M23 do not originate in or transit through 
Ugandan territory, including from individual officials who 
might be acting on their own. The Department continues to 
monitor closely all potential sources of external support, and 
we will continue to respond appropriately, including by 
reviewing our assistance to deter this support as the situation 
develops.
    We are taking a number of other steps in concert with other 
international partners as a part of our comprehensive response 
to the current crisis. First and foremost, we are monitoring 
humanitarian needs and mobilizing an appropriate response. The 
humanitarian situation in the Eastern Congo remains deplorable, 
as it has been for years, but recent attacks by the M23 and 
other armed groups have displaced hundreds of thousands and 
left some areas of North and South Kivu inaccessible to 
humanitarian response.
    The United States provided more than $110 million in 
humanitarian assistance for Congolese refugees, internally 
displaced persons, and conflict-affected civilians in Fiscal 
Year 2012, and at the U.N., we have urged donors to respond to 
the U.N.'s consolidated appeal for the Democratic Republic of 
the Congo.
    Second, the International Conference on the Great Lakes 
Region, known as the ICGLR, the African Union, and the Security 
Council have all demanded that the M23 refrain from further 
offensive operations, and to remain out of Goma. While the 
Congolese Government has agreed to hear the grievances of the 
M23 in discussions that are now taking place in Kampala, we 
continue to call for accountability for the M23's most abusive 
leaders, and we will continue to speak out against the forcible 
recruitment of children and the other crimes of the M23's 
soldiers and rebels.
    Third, we believe that Presidents Kabila, Kagame, and 
Museveni must continue to engage in direct talks to address the 
underlying causes of instability in the region as well as the 
potential drivers of progress. We support the appointment of a 
U.N. Special Envoy to facilitate a long-term solution of these 
problems, and we will consult with the U.N. Secretary General 
about this. We will work to ensure that any agreement between 
the parties is transparent, sustainable, and enjoys support and 
commitment of the region.
    Fourth, more must be done to protect civilians in the 
Eastern DRC. We and our fellow Security Council members and 
troop-contributing countries are reviewing options for 
improving the U.N.'s ability to protect civilians and help 
implement defined aspects of a potential regional political 
settlement.
    Fifth, the DRC Government has the primary responsibility 
for protecting its territory and all, all of its citizens. We 
are urging President Kabila to take clear and bold measures to 
ensure that the soldiers of the Congolese army are 
professionally trained, adequately paid and supported, and 
respectful of their citizens and of international human rights 
norms. The extension of effective governance combined with 
legitimate provincial elections would also help to underpin a 
lasting peace.
    We believe that the time has come for the region's leaders 
and the international community to break the cycle of violence 
and impunity that has existed for far too long in the Eastern 
DRC. We and, most importantly, the region's political leaders 
must ensure that the national security and territory, integrity 
of the DRC, Rwanda, Uganda, and Burundi are protected. We must 
help build a future for people who have seen more conflict than 
peace over the past 2 decades. We must help turn the vast 
mineral and agricultural wealth of the Eastern DRC into a 
source of economic pride and progressThe Honorable Johnnie 
Carson, assistant secretary, Bureau of African Affairs, U.S. 
Department of StateMr. John Prendergast, co-founder, The Enough 
ProjectMr. Steve Hege (former member United Nations Group of 
Experts on the Democratic Republic of the Congo)Mr. Mvemba 
Dizolele, Peter J. Duignan Distinguished Visiting Fellow, 
Hoover Institution, Stanford University benefiting the people 
of the region and not contributing to conflict.
    The leaders of the region must establish nonviolent means 
of addressing their political, security, economic, and border 
differences. As Secretary Clinton noted when she visited Goma 
in 2009, the Congolese people are courageous and resilient, and 
there are reasons for hope across the entirety of the DRC, 
including progress toward paying soldiers through electronic 
and mobile banking, and building the capacity to provide 
justice in response to mass atrocities and human rights 
violations.
    We need to build on these steps, which have been gravely 
set back by the current M23 rebellion. The decisions taken 
today, the decisions taken now will have a direct impact on 
what happens over the next several months as well as the next 
several years. They will affect the behavior of other militias 
in the Kivus, the success of reforms to promote the conflict-
free trade and mineral resources, and the ability to sustain 
operations against the vicious Lord's Resistance Army of Joseph 
Kony that has operated in the northern part of the DRC and in 
the Central African Republic.
    Today's crisis is a tragedy, but it also offers a genuine 
opportunity to help the Congolese people set a more sustainable 
course toward peace and stability in their own country as well 
as with their neighbors. The framework for action at the 
national, regional, and international levels that I have 
outlined today could help enable the peoples of the region to 
escape the recurring cycles of conflict which have hampered 
progress in the Eastern Congo for nearly 2 decades.
    Thank you again for the opportunity to testify this 
afternoon. I have a longer submission for the record which you 
may have. I look forward to answering any of your questions.
    Mr. Smith. Thank you so much, Mr. Ambassador. Without 
objection, your full statement and the letters referenced by 
Ms. Bass before will be made a part of the record.
    [The prepared statement of Mr. Carson follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Ambassador, a couple hours ago, at least 
online, the Guardian newspaper posted an article, the title of 
which is, ``Obama accused of failed policy over Rwanda's 
support of rebel group,'' and it points out the letter that we 
all are aware of, signed by 15 organizations, takes the 
administration to task for its policy. The article begins, 
``Leading campaign groups and thinktanks have written to Barack 
Obama accusing him of a failed policy over Rwanda's support for 
rebels in the Democratic Republic of the Congo, and calling on 
the President to impose sanctions.'' The letter says in 
pertinent part, ``As the situation once again dramatically 
deteriorates in Eastern Congo, the U.S. response to the crisis 
has patently failed and is out of step with other western 
nations. Since M23 was created in the spring of 2012, U.S. 
officials continue to place faith in engaging Rwanda in a 
constructive dialogue. This approach has clearly failed to 
change Rwanda's policy, as evidenced by the direct involvement 
of the Rwandan army in the recent takeover of Goma as 
documented by the United Nations Group of Experts.'' The 
Rwandans say that the report is fabricated and ``The U.N. 
group's report says: `Rwandan officials co-ordinated of 
creation of the rebel movement as well as its major military 
operations' as well as providing troops and arming the group.''
    It recommends imposing sanctions against Rwandans 
officially. You have just testified there is a credible body of 
evidence that corroborates key findings of the Group of Experts 
reports, including evidence of significant military and 
logistical support as well as operational and political 
guidance from the Rwandan Government to the M23. You also point 
out that we do not have a similar body of evidence that Uganda 
has a government-wide policy of support to M23.
    Now, as we all know, and I on the House side pushed very 
hard to get this legislation passed, a bill that was authored 
by then-Senator Barack Obama called the Democratic Republic of 
Congo Relief Security and Democratic Promotion Act of 2006. It 
calls on the U.S. Government to withhold assistance to any 
foreign country taking action to destabilize the DRC.
    I wonder if you could tell us, do the actions of Rwanda 
merit a withdrawal of funding? Does it not rise to, given the 
corroboration of evidence, as you pointed out, to withholding 
aid to Rwanda until they change?
    Mr. Carson. First of all, Mr. Chairman, I reject the 
headline that the administration has failed to speak out 
against the M23 and against those----
    Mr. Smith. That is not what they said, with all due 
respect. They talked about a failed policy, not that we didn't 
speak out against M23, so just be clear.
    Mr. Carson. I think that what we say and do is a part of 
the policy effort, and I reject that notion, and I must reject 
it pretty soundly. First and foremost, we have been engaged on 
this issue since the M23 rebellion began in April of this year. 
Since April up until yesterday, we have at all levels of the 
U.S. Government, senior levels of the U.S. Government been 
working to advance greater peace and stability, an end to the 
current fighting, a current withdrawal of M23 from Goma, and 
discussions between the leaders in the region.
    Let me just give you a quick catalog. Certainly between 
April and September, I and Under Secretary for Political 
Affairs, Ambassador Wendy Sherman, were in contact on numerous 
occasions telephonically with leaders in the region. I also met 
with leaders about this issue at the African Union summit in 
June.
    In September of this year, Secretary Clinton invited the 
Presidents of Rwanda and of the DRC to meet with her on the 
margins of the U.N. General Assembly to try to find ways to end 
the current rebellion. We participated in September as well in 
Secretary General Ban Ki-moon's special meeting on the Great 
Lakes Region. In addition, Under Secretary Wendy Sherman 
traveled to the region in October, met with Presidents Kagame, 
Kabila, and Museveni, and this was one of the most important of 
her sets of meetings out there. She met with President Kagame 
for over 5 hours in Kigali on that visit.
    Shortly after that we actually did take some action. 
Because we had information that we believed indicated Rwandan 
support, we cut off our foreign military financing to the 
Rwandan Government, one of the first such public acts by any 
government. And I can say that I traveled to the region for 
several days just after Thanksgiving and traveled to Kampala, 
to Kigali, and to Kinshasa to meet with the leaders of all 
three countries. I also traveled with my British and French 
counterparts. In addition, we have sanctioned M23 leaders. We 
are about to sanction more M23 leaders and officials, and we 
have continued to advance our diplomacy as well as speak out 
against what has been happening in the region.
    So, Mr. Chairman, with all due respect, anyone who would 
suggest that we have been inactive would be----
    Mr. Smith. Again, Mr. Secretary, or Mr. Ambassador, you are 
both, no one is suggesting inactivity. It is the policy itself 
that is under scrutiny and being criticized by those 15 
organizations, and--I mean, let me ask you this: Are there 
sanctions contemplated or have there been any sanctions imposed 
upon any Rwandese officials or military?
    Mr. Carson. No. But we have, as I pointed out, implemented 
sanctions which have cut off foreign military financing to the 
Rwandan Government and to the Rwandan military.
    Mr. Smith. Let me ask you, Mr. Secretary----
    Mr. Carson. I think those are sanctions, and I think they 
are very public, and they have been terminated.
    Mr. Smith. You mentioned support for U.N. envoy. How about 
a U.S. envoy?
    Mr. Carson. We actually have a U.S. Envoy for the Great 
Lakes Region. His name is Ambassador Barrie Walkley. He has 
been on the job for nearly a year. Ambassador Walkley is 
infinitely qualified to serve as our envoy there. He has served 
in two francophone African countries as Ambassador and he has 
previously served as deputy chief of mission in the DRC. He 
travels to the region quite frequently, and so there is an 
envoy out there already. One may quibble with the level, but 
the existence is there. He is active, and he is working hard on 
this issue along with other officials.
    Mr. Smith. Understood. But the gravitas of a Presidential 
envoy I believe would send, perhaps, a stronger message to 
those that are part of the peace process.
    Let me ask you, if I could, John Prendergast, in his 
statement, very strongly says, ``By global standards the 
international effort to construct a credible peace process for 
Congo is manifestly derelict, condemning that country to 
further cycles of devastating conflict. When the curtain is 
pulled back, when one looks behind the occasional United 
Nations Security Council resolution calling simply for an end 
to the violence, the international diplomatic response is 
revealed to be shockingly ineffective, perhaps even violating 
the Hippocratic Oath, `first do no harm.' '' Then he goes on 
from there. How do you respond to that?
    Mr. Carson. Well, I think I don't need to respond for the 
entire international community. All I do is respond for the 
U.S. Government. I know Mr. Prendergast, we have been long-time 
colleagues and friends. He has a great deal of knowledge and 
expertise on the region, but I would submit that the actions 
that we have taken reflect a high degree of interest in this 
situation.
    Mr. Smith. Would troops recently pledged by the South 
African Development Community comprise a credible force to 
protect the DRC-Rwanda border?
    Mr. Carson. Last week, the SADC countries met in Dar es 
Salaam, and there they agreed to send in some 4,000 troops into 
the Eastern DRC to serve as an international or, I should say, 
a neutral international force; 1,000 troops were pledged by 
Tanzania, the other 3,000 were going to be drawn from a 
southern African stand-by force. I do not know the capacity or 
the ability of the countries in the region to pull those troops 
together, but what I would say is that the U.N. currently has 
the largest peacekeeping force in the world in the DRC, and if 
there is an interjection of a new force, it should be done very 
carefully in cooperation and collaboration with the United 
Nations. It should be well thought out and well resourced, and 
one should consider whether it is not better to augment and 
integrate those new forces into an expanded and more assertive 
U.N. force than to create a new force that would be operating 
in the area in which there are already a large number of 
military and rebel forces. It could create some concerns about 
operational effectiveness and operational overlaps.
    Mr. Smith. I, too, have been in Goma myself a few years 
back, and know how unbelievably unstable that area is. Part of 
the problem, I believe, is that there are insufficient troops 
deployed, even under the large U.N. deployment there, and then 
there is always the question of the rules of engagement.
    Let me ask you one final question before I yield to my 
friend, Ms. Bass. There are rumors, maybe they are just rumors, 
that the administration sought to delay the U.N. Group of 
Experts report on the DRC this past summer and attempted to 
soften criticism of Rwandan involvement with M23. Can you speak 
to that?
    Mr. Carson. I reject that as out of hand.
    Mr. Smith. Okay. And one final question, the Rwandans join 
the U.N. Security Council next year. Does that have any bearing 
on what our policy will be, particularly when it comes to 
sanctions, since they will be on the Security Council?
    Mr. Carson. No, it does not. I would just hope that the 
Rwandans, when they join the Council, will carry out their 
duties in a responsible and thoughtful way just as the other 15 
members of the Security Council do.
    Mr. Smith. Ms. Bass.
    Ms. Bass. Thank you, Ambassador Carson. I want to change 
the subject a little bit and wanted to ask if you could speak 
to some of the background of the M23. I mean, I do understand, 
you know, when they started and why, but I just wanted to know 
if you had any further insight as to what their ultimate aim 
is, what is the motivation for them to continue, and also, the 
idea--you mentioned that there wouldn't be impunity to the 
commanders of the M23 to be reintegrated back into the DRC's 
Armed Forces, but how do you reintegrate any of them? How big 
is the M23? How many soldiers are there?
    Mr. Carson. Let me speak to the first question of aim and 
motivation. I believe that the current group of M23 rebels want 
to be able to maintain themselves as consolidated military 
units in the eastern part of the DRC. I think they see 
themselves as guardians of the Tutsi population in the East. I 
suspect that some of them have political ambitions and would 
seek to try to be able to be the top officials in local 
administrations in the East.
    Beyond that, I don't know what their aims and motivations 
are. I know that when this rebellion started back in March and 
April there was a clear desire on the part of the now 
constituted M23 rebels not to be moved from the eastern part of 
the DRC into other parts of the country, and their officers did 
not want to leave the military commands in which they had been 
assigned to take on different commands.
    Impunity, I think there should not be impunity for those 
M23 leaders who fall into three categories--those who are 
clearly ICC indictees, those for whom there are international 
and binational sanctions already, and thirdly, for those where 
there is evidence or a growing body of evidence that they have, 
in fact, committed atrocities and war crimes and rapes 
throughout the last 7 or 8 months. I don't have an exact figure 
for the number of M23 rebels. Initially when they broke away in 
April of this year, the number was probably no more than 1,000. 
Today that number has probably swelled for a lot of reasons, 
but it is not a legion of people.
    Ms. Bass. You know, when you were saying previously that 
what the President, one of the things that led to the recent 
rebellion was the President trying to scatter the troops, 
because how can you ever have peace if, even if you did have 
sanctions against the top commanders, how can you have an army 
when you have a faction that wants to separate and operate 
independently? I don't know how that works.
    Mr. Carson. It doesn't work very well. But let me say that 
there have been a number of countries that have effectively 
integrated rebel groups into their militaries and in the 
process, have made those militaries stronger and more 
consolidated. Here I think there was an effort by the M23 not 
to leave the Kivus, not to be reassigned to other parts of the 
DRC, and for their leaders, not to move out of the areas in 
which they called home. I don't think you can effectively 
operate a military in which you have a reintegrated rebel group 
deciding what it wants to do rather than what the military 
command and the government wants it to do.
    Ms. Bass. Right. Exactly. You also talked previously about 
the ongoing tension on the border of Rwanda and the DRC, and 
you mentioned the U.N. peacekeeping forces, and also the 
possibility of troops coming from South Africa to secure that 
border. Where are the peacekeeping troops? Are they all over? 
Aren't they already on that border?
    Mr. Carson. No, they aren't. I think that the MONUSCO 
troops are scattered throughout the eastern part of North and 
South Kivus. They are there largely to protect civilian 
populations, refugees, and displaced persons. They are not, in 
fact, monitoring or working and observing along the border, but 
are near and in towns, villages, near refugee camps and 
displaced-persons camps to respond to crises and to help the 
FARDC, the Congolese military, when they are called upon to do 
so.
    Ms. Bass. Could you speak to the impact that conflict 
minerals might be playing, the role conflict minerals might be 
playing, especially in providing resources to the M23?
    Mr. Carson. Let me say that conflict minerals have always 
been a factor in providing resources to rebel groups in the 
eastern part of the Congo, but quite honestly as serious as 
conflict minerals are, they are probably not the primary reason 
for the current crisis. They are one of the, you know, 
underlying systemic reasons why the crisis can continue, but I 
think that the current crisis is to be found in what are the 
so-called grievances and in discipline of the M23 and the 
support that they have received from outside of the country.
    Ms. Bass. And then finally, how would you assess the U.S. 
Government's response to the humanitarian crisis in the eastern 
region of the DRC, if you could describe it?
    Mr. Carson. I think, as I noted in my testimony, we have 
given in excess of $110 million in humanitarian assistance.
    Ms. Bass. Maybe you could explain what some of those 
dollars are for?
    Mr. Carson. These dollars are used to provide food to 
displaced persons throughout both North and South Kivus, it is 
to provide food and assistance to refugee populations who are 
there, it is to provide shelter, shelter material and blankets, 
it is also to provide clean and potable water, and also to 
provide prophylaxis for malaria and also the medicines for 
dealing with issues of cholera and hygiene.
    Ms. Bass. And, I am sorry, just one final question. What 
more would you like to see from Congress? How can we be helpful 
in this situation?
    Mr. Carson. Congresswoman Bass, I think your hearings, 
hearings such as this one give us downtown an opportunity to 
indicate to you what we are doing. They also give us an 
opportunity to hear from you what things you think we haven't 
been doing that might be useful to do to improve the situation.
    Mr. Smith. Without objection, a statement from World Relief 
will be made a part of the record. I yield to Mr. Marino.
    Mr. Marino. Thank you, Chairman. Thank you, Ambassador, for 
being here today.
    Mr. Ambassador, my research shows me that the United 
States, perhaps with some assistance from other countries in 
Europe, have given about $1 billion over the last 10 years to 
Rwanda and not quite that much to Uganda. Can you explain if we 
have reduced any amount given to either of those countries and 
how much?
    Mr. Carson. Mr. Congressman, we have certainly in the last 
6 months reduced our foreign military financing to Rwanda by 
some $200,000. This would have been monies that the Rwandan 
military could have used for the financing and purchasing of 
equipment. We have not reduced any of our development 
assistance money to Rwanda, and I might say here that Rwanda 
does a remarkably good job of utilizing its foreign assistance 
resources probably more effective than most countries across 
Africa. They do a very good job in using that money to provide 
health care, agriculture, education to their people, and they 
do get very high marks for that. We have not touched any of 
their development assistance money.
    Mr. Marino. How do you draw the distinction between where 
the--did you say $200,000? That is a drop in the bucket, 
$200,000. And I think the remark from the Prime Minister or the 
General was $200,000 was nothing, it doesn't bother us at all. 
So it doesn't seem that we are very serious about this, 
blatantly not very serious about this, and how is the so-called 
remainder of the billion over the 10 years less the $200,000, 
how is that disbursed and who disburses it?
    Mr. Carson. I am not sure what the billion is that you are 
referring to?
    Mr. Marino. The billion dollars that my research shows that 
the U.S., with some assistance from Europe, has given Rwanda 
over the last decade. Now, you say that has been reduced at 
least this year, I am assuming this year by $200,000, so if you 
break that billion over a 10-year period, still $200,000 is 
nothing over an annual basis, and how can we guarantee that 
even though there is a reduction of $200,000, and you say, I 
believe you say to the military, and correct me if I am wrong, 
it is all fungible.
    Mr. Carson. It is not fungible. Let me, first of all, say 
that in Fiscal Year 2012 that has just concluded, we provided 
Rwanda with some $195 million in assistance. This money went 
primarily into health and to agricultural programs. Rwanda has 
used its development assistance dollars extraordinarily well. 
As I said, probably better than most other African countries 
and most other developing countries.
    Mr. Marino. How do you----
    Mr. Carson. Moreover, we do not provide them with direct 
budgetary support. We are not providing them with a check or 
with cash. We work through NGOs, through international 
development organizations and agencies, and there is a high 
degree of accountability for all of the funding that we have 
given to the Rwandan Government. Their utilization of foreign 
assistance in an effective manner really is not at question nor 
at issue because in that regard, we have to be both frank and 
honest, and they do a very good job. We don't give them cash, 
we don't write them a check, but the monies that they get 
through the international partners is effectively utilized for 
the purposes it is intended for. We are pretty----
    Mr. Marino. I have understood through my research and 
contacts that there has been a great deal of hijacking of these 
resources by groups such as M23 and using it for their own 
purposes or selling that to buy weapons. Do you have any 
information on that?
    Mr. Carson. Not--I am not aware of that whatsoever.
    Mr. Marino. Has the U.S. had any contact, directly or 
indirectly, with M23 leaders?
    Mr. Carson. No. I am not aware of any direct contact 
between U.S. officials and M23 leaders. There have been two 
meetings in Kampala between leaders of the M23 and members of 
the DRC Government along with other diplomats. We have been in 
the room as observers when those sessions have been public, but 
we have had no direct contact of which I am aware with any, and 
I underscore any M23 leaders.
    Mr. Marino. Are there any plans to get more directly 
involved for whatever reason by the Department of State with 
M23?
    Mr. Carson. Well, I think--no, not at the--no, not that I 
am aware of. Certainly not.
    Mr. Marino. You stated that numbers have increased with 
M23, they have swelled over the last several months. For what 
reasons?
    Mr. Carson. Defections from the FARDC, recruitment of 
individuals in the communities that they have captured and 
taken over, the forced recruitment of young men, all of these 
have contributed to an expansion of their numbers.
    Mr. Marino. You started explaining a little bit the reason 
for the crises, but can you expand upon your answer as what you 
see the cause, the direct cause of the crisis that is taking 
place, particularly with M23's origination?
    Mr. Carson. Well, M23 rose out of the--an organization 
called the CNDR which was integrated into the Congolese army 
back in March 2009. Most of these individuals were from North 
and South Kivu, they were a part of a rebel movement. Most of 
them were Rwandaphones and Tutsis in origin. In order to bring 
an end to a previous rebellion by this group, the Government of 
the DRC brought them in to the military, integrated them in, 
and attempted to make them a part of the army. They broke away 
in April of this year. I might add that not all of the CNDR 
members from 2009 and before broke away. Some of them remained 
in the army. But the principal reasons for their decision to 
bolt and run, they claim, was a failure of the DRC Government 
to live up to the agreement of March 23, 2009, but other things 
that are clear is that the DRC Government wanted to move units, 
some of these integrated CNDR units to other parts of the 
country. They resisted this. They wanted to move some of the 
leadership to other parts of the country. They resisted this.
    President Kabila also did something that disturbed the 
CNDR, and he announced that he would try to arrest one of the 
most notorious of the CNDR leaders who had been integrated into 
the army, and that was Bosco Ntaganda, who was an ICC indictee, 
and so all of these reasons that have a lot to do with 
disgruntlement within this integrated rebel faction are the 
background to the current crisis.
    Mr. Marino. Mr. Ambassador, you stated that the aid that we 
are supplying to Rwanda via NGOs, how can we guarantee that any 
of that aid is not going into regions controlled by M23.
    Mr. Carson. Again, I want to separate both the DRC from 
Rwanda. We have no evidence, no proof that any of the aid that 
we have given to Rwanda has been misused or mischanneled into 
the hands of any rebel group. As I said before, the issue here 
really is not about the effective utilization of aid and aid 
resources. Rwanda has a high level of credibility with respect 
to the way it uses its resources. That is not at issue. I have 
no doubt that they are using their resources well.
    So it is not funneling across the border, and it is not 
direct assistance, so we work with NGOs and international 
organizations. We audit what we give, and they use it 
efficiently. It is not being misused.
    And in the areas of the DRC, we are providing only 
humanitarian support and assistance. And that humanitarian 
support and assistance is going through organizations, mostly 
U.N. organizations, World Food Programme, or through UNHCR, or 
through the development assistance arm of the international--of 
the United Nations, or through Caritas or Save the Children or 
ICRC.
    Mr. Marino. Is that an audit that the State Department 
conducts or is that an audit based on information that the NGOs 
give the State Department?
    Mr. Carson. We can provide you with a full answer to this, 
but USAID conducts routine audits of all of its assistance 
programs. I cannot tell you when they did the last ones with 
respect to these programs. But they conduct routine audits to 
ensure that there is accountability. Again, that is not at 
issue here.
    Mr. Marino. How do you get the attention of a country like 
Rwanda and Uganda from supporting M23 by not stopping aid to 
the country, whether it is for humanitarian needs or not? How 
do you get their attention?
    Mr. Carson. By engaging them continuously, diplomatically, 
at a high level, and by doing such things as indicating that 
we, as we have done, that we will cut off their foreign 
military financing if they persist in carrying on.
    Mr. Marino. I don't mean to be facetious, but this may be 
more rhetorical than a question you have to answer, but how is 
that negotiating going?
    Mr. Carson. It is like any set of negotiations, sometimes 
much longer than any of us would like, but we know that 
persistence over the long run pays off.
    Mr. Marino. So is it your position that the U.S. keep the 
plan that they have in operation right now and continue trying 
to negotiate this? At what point do you stop? How many people 
have to die before you stop the negotiations and get serious 
about this?
    Mr. Carson. We can't stop. We continue, and we will 
continue to persist. This is not in our hands alone. We can 
only facilitate. We can only encourage. We can only prod, 
cajole, and push peace, and the effort to bring about peace and 
stability is always in the hands of those who are adversaries. 
Our desire is to get them to see reason, and to see it sooner 
rather than later, and to understand that the persistence of 
conflict and violence only means greater loss of life and hurt 
for people.
    But it is not simply in our hands. We can only do as much 
as we can to bring people to the table and encourage them to 
see reason.
    Mr. Marino. And in closing, this is more of a statement 
than it is a question, from my reading of the research, it 
seems that this situation is not getting the attention that I 
think is required from the United Nations as well.
    Thank you, Chairman. I yield.
    Mr. Smith. Thank you very much.
    Without objection, the audit information requested by Mr. 
Marino and promised by Ambassador Carson will be made a part of 
the record. So we look forward to receiving it.
    Chair recognizes Chairman Royce.
    Mr. Royce. Thank you, Chairman Smith.
    Let me just ask Ambassador Carson a couple of questions. 
One, just going to MONUSCO's mandate, I think the force there 
of M23, that militia is probably about 2,500 people from at 
least the press accounts. And I know the French have a 
perspective here that the ability to secure the safety of the 
civilian population could be addressed by a more robust 
authorization that would allow them to come to the defense of 
the civilian population. And I was going to ask you that 
question.
    And the second question I was going to ask you goes to the 
issue of naming Rwanda for its involvement here with M23, and I 
know there was that debate in the Security Council over whether 
or not we would expressly name them. And as I recall, the U.S. 
position was not to do so at the time. But I think in light of 
events since then, we have now sort of taken the position, or 
it seems that the administration has taken the position that we 
are pointing to Rwanda's engagement here. So de facto maybe we 
have named them. Just a couple of--just your observations on 
those two points, Ambassador.
    Mr. Carson. Chairman Royce, thank you very, very much for 
both of those questions, and also thank you for your continued 
interest in Africa. Let me respond to the second question first 
and repeat a part of my testimony that you may have missed at 
the beginning.
    I said that the M23 would not be the threat that it is 
today without external support. And we will continue to 
discourage outside parties from providing any assistance to the 
M23. There is a creditable body of evidence that corroborates 
key findings of the Group of Experts reports concerning Rwandan 
Government support to the M23, including military, logistical, 
and political assistance.
    Mr. Royce. Ambassador, I think you put that very, very 
well. My only question was, we hadn't put it in the resolution, 
in Resolution 2076, and perhaps it should have been there. But 
you couldn't be more explicit than you just were, and I thank 
you for that.
    And let me just ask you about the proposed alternatives to 
ensure more civilian safety with respect to the mandate.
    Mr. Carson. Mr. Chairman, the current MONUSCO mandate is 
for some 20,000 U.N. peacekeepers. Currently, that mandate is 
undersubscribed by approximately 2,000 individuals. I think 
MONUSCO today has a force level of approximately 17,700 
individuals.
    Certainly, it would be desirable to see the full complement 
of the mandate met. It certainly would help to allow the 
MONUSCO to carry out its responsibilities. Following in the 
aftermath of the current situation in Goma, and the Eastern 
Congo, I think I also made reference to in my statement, to the 
fact that it would be useful for a reexamination of the 
effectiveness of the force and whether the mandates and other 
responsibilities are being met and whether there are adequate 
resources to meet them. But the force is undersubscribed by 
approximately 2,000 people.
    Mr. Royce. Thank you, Ambassador. The last question I will 
ask you just goes to this group, the Allied Democratic Forces/
National Army for the Liberation of Uganda, which has been 
around for a while, and it goes to this issue of rebel groups 
increasingly joining forces beyond their national borders. This 
particular group has done some work with al-Shabaab, and a 
bombing, for example, July 11, 2010, in Kampala, which killed, 
I think, over 70 people.
    And so you have this nexus. If we look at the leader of 
this group, he got his training, I think he is a converted 
Catholic, Jamil Mukulu, who converted to radical Islam probably 
while he was in Sudan. But in Sudan, he met Osama bin Laden, 
and through the initial work with these radical organizations 
put together his own little vision of how he could create 
change, and including a lot of mayhem, but none of it that 
spectacular until al-Shabaab began to give him the wherewithal, 
you know, to carry out attacks like this one.
    And I was going to ask you about that phenomenon. You have 
these organizations where part of his support network come from 
disaffected Congolese, and here is Ugandans in the operation as 
well and, you know, people from throughout the region who join 
a cause that becomes sort of transnational, and begin working, 
in this case they suspect him of working with al-Qaeda as well.
    Ambassador Carson, just anything you can do to bring me up 
to speed in terms of organizations like this that, frankly, he 
is based right now in eastern Kivu. So, you know, we have got 
the--in North Kivu. So we have got the same phenomenon 
spreading, apparently.
    Mr. Carson. Mr. Chairman, three quick points on that. First 
of all, it is absolutely essential that all the states in the 
region agree and commit themselves not to harbor, not to 
support, not to defend, not to provide equipment, or 
sustenance, or training to rebel groups operating against the 
leaders of a neighboring state. This is one of the problems 
that we face today with the M23. It is also a problem that we 
face with the Allied Democratic Forces. This is incumbent upon 
all of them, incumbent upon every state in the Great Lakes to 
do this. If we could get that, we could cut off a lot of the 
support for rebel groups.
    With respect to the Allied Democratic Forces, indeed, they 
have been operating in the eastern part of North Kivu against 
the Ugandans. The Government of the Democratic Republic of the 
Congo needs to do everything that it possibly can to not allow 
groups like this to continue to operate out of and from their 
territory. I am not in any way accusing them of aiding and 
abetting, but the mere fact that they don't have security and 
control of the territory effectively allows this to go on. But 
it needs to stop, clearly needs to stop.
    Third point, with respect to the leader of the Allied 
Democratic front, Mr. Mukulu, we have, in fact, sanctioned him. 
We have imposed both visa travel and financial sanctions on him 
in response to the very criminal things that we know that he is 
responsible for doing.
    Mr. Royce. Ambassador, thank you very much, and thank you 
for all your work on the ground in Africa with these groups. I 
know that as things were unfolding in Eastern Congo you were 
there trying to influence the course of events, and we 
appreciate that.
    I yield back, Mr. Chairman.
    Mr. Smith. Thank you very much. Thank you, Mr. Royce.
    Let me ask just two final questions.
    And, Ms. Bass, if you have a final question, please fire 
away.
    Again, you have in your testimony made it very clear that 
there is a credible body of evidence that corroborates key 
findings of the Group of Experts, including evidence of 
significant military and logistical support, as well as 
operation and political guidance from the Rwandan Government to 
the M23. I know on your most recent trip you were precluded the 
opportunity to meet with Paul Kagame, the President of Rwanda. 
Did the officials with whom you met with, did they dispute 
that, and when Under Secretary Sherman met with President 
Kagame some months back, several weeks back, did she get a 
report back from him? Did he tell her that this is all rubbish, 
not true, or did he admit to anything?
    Secondly, one of my most disappointing takeaways today, and 
Mr. Marino, I think, drew you out further on the suspension of 
foreign military financing, that we are talking about $200,000 
when the 2006 Act at least envisioned a more robust and 
credible sanction against a country that is aiding and abetting 
a nefarious organization like M23. So if you could speak to 
whether or not additional sanctions are under consideration, at 
least against Rwanda, and specific individuals as well.
    Mr. Carson. Mr. Chairman, let me answer the first question. 
You are correct. As I stated earlier, I and my British and 
French colleagues met in Kampala for several hours with 
President Museveni, and in Kinshasa we met for an extended 
period of time with President Kabila, as well as his Foreign 
Minister and his Prime Minister.
    In Kigali, it is regrettable that President Kagame chose 
not to meet with us. The message about our concerns, again, not 
just those of the United States, but Britain, and France, we 
traveled there as the P3, the three permanent members of the 
Security Council who have worked together on many, many issues, 
but we did speak with the Foreign Minister, Foreign Minister 
Louise Mushikiwabo, plus some of her colleagues. Again, we 
raised the issue of the need to end outside support.
    As in previous discussions, the Rwandan Government 
strongly, vehemently denies that it is providing any assistance 
to the M23, and it has not taken the steps of publicly 
denouncing on a bilateral basis the M23. So we have raised 
this, and it is important that we continue to monitor this, as 
others in the international community do, on a very, very close 
basis.
    With respect to your second question, about international 
support to, or at least our bilateral support to the Rwandan 
Government, I start with what I said to Congressman Marino 
earlier, is that they utilize their international assistance, 
not only from us in particular, but others, very, very 
effectively. And they use it with great integrity. People get 
it. We are not providing any cash or check transfers. It all 
goes through international organization and donor groups that 
work with the government. We don't think there is a level of 
fungibility, and we do not believe that the money is being 
misused or misdirected. We focused on the military because that 
is where the issue and the problem derives.
    I know that a number of European governments have suspended 
large amounts of funding to the Rwandan Government, but they 
handle their resources differently. In most instances, they are 
making budgetary transfers that are cash payments and checks 
into the government. We don't do that. So it is a very, very 
different thing. Our desire is not to hurt the Rwandan people. 
Our desire is not to cut them off from essential support for 
agricultural, education, or health programs. Our real desire is 
to get a change in the regional policy.
    Mr. Smith. Mr. Ambassador, but sanctioning individuals 
within the Rwandan Government would not in any way hurt 
individuals. And frankly, the argument you are making, I serve 
in this panel and began my service on this panel in my second 
term, in 1983, and voted in favor of sanctioning South Africa, 
and there were people who said you will hurt innocent people if 
you do so. But sometimes the egregious harm is so compelling 
that a very strong statement needs to be made. But minimally, I 
would think we would want to sanction individuals in the 
Rwandan Government.
    Mr. Carson. Mr. Chairman, I have heard your request and 
your concerns.
    Mr. Smith. Thank you so much, Mr. Ambassador.
    I would like to now ask our second panel to make their way 
to the witness table, beginning first with Steve Hege, who has 
worked on the Eastern DRC, where he has served with three 
consecutive mandates as the armed groups expert for the United 
Nations Group of Experts on the DRC. He investigated and 
coauthored six public reports submitted and presented to the 
U.N. Security Council's sanctions committee. During the group's 
recently expired 2012 mandate, he was also the coordinator of 
the six-member team working under Security Council Resolution 
2021. Prior to joining the U.N. Group of Experts, Mr. Hege 
worked with several humanitarian and peace-building 
organizations.
    We will then hear from John Prendergast, who is a human 
rights activist, a bestselling author, and co-founder of The 
Enough Project, an initiative to end genocide and crimes 
against humanity. He has worked for the Clinton administration, 
the State Department, and in Congress. He has also worked for 
the National Intelligence Council, UNICEF, Human Rights Watch, 
the International Crisis Group, and the U.S. Institute of 
Peace. He has helped fund schools in Darfurian refugee camps 
and helped launch the Satellite Sentinel Project with George 
Clooney. Mr. Prendergast has worked for peace in Africa for 
well over a quarter of a century.
    Then we will hear from Mvemba Dizolele, who is a visiting 
fellow at Stanford University's Hoover Institution, and 
professor, lecturer in African studies at the Johns Hopkins 
University's School of Advanced International Studies. Mr. 
Dizolele has testified several times before the Congress. His 
work has appeared frequently in many major news publications 
and he is a frequent commentator on African affairs on 
television and radio. He has served as an election monitor in 
the DRC in 2006, and again in 2011, and has also been embedded 
with United Nations peacekeepers as a reporter there. In 
addition, he is a veteran of the United States Marine Corps.
    Thank you for your service. And I would like to now go to 
Steve Hege.

STATEMENT OF MR. STEVE HEGE (FORMER MEMBER UNITED NATIONS GROUP 
      OF EXPERTS ON THE DEMOCRATIC REPUBLIC OF THE CONGO)

    Mr. Hege. Chairman Smith, Ranking Member Bass, and members 
of the Subcommittee on Africa, Global Health, and Human Rights, 
thank you for this invitation to testify at this hearing on the 
current crisis in Eastern Congo. I have been working in the 
Congo for over 8 years, including the past three as a member of 
the United Nations Group of Experts. The Group of Experts' 
mandate recently expired on 30 November, during which I served 
as the coordinator of our six-member team. As such, I am no 
longer affiliated with the United Nations, and the views I 
share today do not reflect those of the organization or that of 
the Group of Experts, but rather strictly my personal 
perspectives.
    The Group of Experts is a Security Council-mandated body 
which reports to the Council's sanctions committee. Its role is 
to investigate, document, and inform the sanctions committee of 
violations of the United Nations' arms embargo on non-state 
actors in the DRC, as well as related issues such as the 
illegal trade in natural resources and serious violations of 
international law, including the recruitment and use of child 
soldiers. During the course of the previous mandates, the group 
found that since the very outset of the M23 rebellion, the 
Government of Rwanda had provided direct military support to 
M23, facilitated recruitment, encouraged desertions from the 
Congolese Army, and delivered arms and munition, political 
advice, and intelligence to the rebels.
    At the strategic level, Rwanda has also spearheaded 
fundraising and membership drives for the political cadres, 
even nominating the movement's political leadership and 
directly instructing them of their demands to be made before 
the Congolese Government.
    The Rwandan Army has not only set up an elaborate 
recruitment network within Rwanda to ensure a steady supply of 
new troops to M23, including children, but they have also 
integrated their own officers and trainers within M23's chain 
of command on the ground in North Kivu. During all major 
military operations, the Rwandan Army has deployed thousands of 
additional troops to reinforce M23 in their principal attacks, 
such as the recent offensive on Goma.
    While members of the international community have expected 
Rwanda to diminish its support in light of diplomatic and 
financial pressure, the group has found that such direct 
involvement has only increased with time, precisely because 
M23's de facto chain of command culminates with the Minister of 
Defense of Rwanda, General James Kabarebe. Nevertheless, the 
Government of Rwanda continues to deny any involvement. In 
annex 3 of our final report, we thoroughly responded to each of 
their criticisms. However, when its substantive arguments 
proved unconvincing, Rwanda turned to attacking the Group of 
Experts, claiming bias and even orchestrating a media campaign 
defending that I was a sympathizer of the Rwandan Hutu rebels 
of the FDLR and a denier of the Rwandan genocide.
    Nevertheless, Rwanda had previously recognized my 
objectivity through the group's extensive detailed 
investigations on the support networks and financing of the 
FDLR in recent years.
    In addition to Rwandan backing to M23, in our final reports 
the group documented support for the rebels from important 
networks within the Government of Uganda. Senior Ugandan 
officials provided the rebels with direct troop reinforcements 
in Congolese territory, weapons deliveries, technical 
assistance, joint planning, political advice, and facilitation 
of external relations. They also supported the creation and 
expansion of the political branch of M23 permanently based in 
Kampala even before President Kabila had ever authorized any 
interaction with the rebels. A Ugandan Government 
representative acknowledged this type of support was indeed 
taking place in an official meeting of the Group of Experts in 
early October.
    Throughout our mandates, the question most often posed to 
us was quite natural and logical: Why? Why would Rwanda 
undertake such a risky and politically dangerous endeavor? 
Though it is not the work of the Group of Experts to establish 
causes or drivers of conflicts, I will humbly attempt to 
analyze some of the stated motives behind this war, beginning 
with M23's key demands.
    Since the rebellion's initial stages, M23 has presented an 
assortment of demands and justifications. First, the rebels 
have claimed that the government reneged on the 23 March 2009 
peace agreements. Nevertheless, in reality, this accord was 
essentially an afterthought to formalize a bilateral deal 
between Kinshasa and Kigali which was predicated on the 
affording the latter with immense influence in the Kivus, in 
exchange for arresting CNDP Chairman Laurent Nkunda and forcing 
the rest of the CNDP to join the national army under the 
leadership of Bosco Ntaganda.
    For many within the CNDP and the Rwandan Government, the 
integration of the CNDP into the Congolese Army was merely a 
tactical move, but never constituted a fundamental alteration 
of their objectives. The short-term deal, nevertheless, was 
immensely generous to Rwanda, the Congolese officers of the 
CNDP, particularly Ntaganda and his loyal officers, who took 
control over much of the army in Eastern Congo.
    Paradoxically, the rebels have also complained of the 
pervasive corruption within the Congolese Army. Nevertheless, 
as the most powerful commanders in the Eastern DRC, they were 
some of the worse perpetrators of salary theft and 
racketeering. Moreover, the rebels have claimed discrimination 
of Tutsi officers within the army and the killing of those 
former CNDP officers who had been redeployed outside of the 
Kivus.
    While certain historical animosities cannot be denied, 
dozens of Tutsi senior officers and over four-fifths of the ex-
CNDP have chosen not to join the rebellion. In recent months, 
M23 has increasingly claimed that they want a review of the 
discredited 2011 Presidential elections in an attempt to 
attract sympathies of a broader constituency. Nevertheless, the 
CNDP political party had in fact joined the President's 
electoral alliance and many top M23 commanders orchestrated 
massive fraud on his behalf.
    Now, if it is not really the claims of the March 23rd, 2009 
agreements, or good governance, human rights, then what does 
Rwanda really want in this crisis? Despite the extremist 
paranoia about Balkanization, which has been so prevalent for 
many years amongst the Congolese population traumatized by 
multiple foreign invasions, only one of the rebel demands has 
any lasting explanatory power, and that is federalism. Rwandan 
orchestration of the M23 rebellion becomes more comprehensible 
when understood as a determined and calculated drive to spawn 
the creation of an autonomous federal state for the Eastern 
Congo. There has been speculation over whether Rwandan 
involvement was driven by security interests, economic 
interests, or cultural ties, but a federal state for the 
Eastern Congo would encapsulate all of these issues.
    Prior to the November 2011 elections, one of the most 
senior Rwandan intelligence officers argued that because the 
Congo was too big to be governed by Kinshasa, Rwanda should 
support the emergence of a federal state for the Eastern Congo. 
He told me, Goma should relate to Kinshasa in the same way that 
Juba was linked to Khartoum in reference to Sudan.
    During our official meetings with the Rwandan Government in 
Kigali in July, the Rwandan delegation consistently stated that 
our investigations were simply a distraction from reaching a 
definitive solution for governance in the Eastern Congo. When 
pushed further, several representatives did not hide the fact 
that the only solution they had in mind was indeed federalism.
    Not surprisingly, Rwanda has openly aided and abetted self-
declared Congolese secessionists so as to set the bar high 
enough to position federalism eventually as an acceptable 
compromise. During several internal meetings of M23 for 
mobilization, senior government officials, including the 
Minister of Defense's special assistant, openly affirmed that 
establishing this autonomous state was in fact the key goal of 
the rebellion. One M23 spokesperson recently stated to the New 
York Times, ``We want more than decentralization, we want 
federalism,'' and ``The eastern parts of the Congo's interests 
are in eastern Africa.''
    Even senior Ugandan security officials also acknowledge 
that this was the aim of the Rwandans in this M23 war. One 
officer who was himself involved in supporting M23 in 
cooperation with the Rwandans told us, ``they're thinking big . 
. . you need to look at South Sudan.''
    This objective also explains why Rwanda has consistently 
sought to depict all armed groups in the Eastern DRC as one 
single, united, credible front against Kinshasa, and repeatedly 
calling the Congo a big black void in the Congolese state as 
fictitious. A federal autonomous state for the Eastern Congo 
would cement and guarantee Rwanda's already extensive influence 
over military, political, economic, and cultural aspects of 
life.
    The Government of Rwanda, to its great credit, since the 
horrific events of the genocide in 1994 has exhibited 
unparalleled ambition to rebuild its country with unmatched 
progress. However, that same determination has led Rwanda's 
leaders to erroneously adopt this inherently destabilizing 
long-term geopolitical strategy for the Eastern DRC.
    So if Rwanda's geopolitical aspirations are indeed as I 
suspect so ambitious, then what can we expect from current 
negotiations, particularly when Rwanda has demonstrated in 
recent weeks that it has the upper hand on the battlefield? For 
his part, President Kabila feels very strongly about 
negotiating the March 23rd agreement, but talks will inevitably 
falter unless the key issue of federalism is put front and 
center on the negotiating agenda.
    Will the U.S. and others in the international community 
support a federal solution for the Eastern Congo with full 
knowledge that this was likely Rwanda's primary objective in 
the first place?
    Stepping back from the current dynamics, federalism in and 
of itself is neither inherently a good or bad proposition, but 
when driven by a neighboring state which would benefit 
enormously from it federalism can be problematic to say the 
least. Diplomats commonly affirm that Rwanda can and must be a 
part of a solution. Which solution, I would ask. The Rwandan 
solution for this crisis appears to have been identified well 
before the shots were even fired.
    Thank you, Mr. Chairman, for the opportunity to share the 
findings of the group and my perspectives on the crisis.
    Mr. Smith. Thank you very much for your testimony.
    [The prepared statement of Mr. Hege follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. And now Mr. Prendergast.

   STATEMENT OF MR. JOHN PRENDERGAST, CO-FOUNDER, THE ENOUGH 
                            PROJECT

    Mr. Prendergast. Thanks very much, Representatives Smith 
and Bass and Marino and Turner, for your extraordinary 
commitment to the people of the Congo. It is deeply appreciated 
by everyone in this room, I can tell you.
    I want to begin, though, by echoing something you said, 
Congressman Smith, earlier in the hearing. No one is 
questioning the hard work and the dedication and the decades-
long commitment that key administration officials have 
exhibited on behalf of peace in Congo. I would particularly 
point out for special commendation Ambassador Johnnie Carson, 
and Ambassador Susan Rice at the U.N. I am particularly 
saddened by the personal attacks we have seen against 
Ambassador Rice in the press and the blogosphere over the last 
couple weeks over issues related to the Congo. The Washington 
shark cage has been fully activated and I guess some people see 
blood in the water. But knowing Johnnie and Susan and working 
with them over the past 16 years, I can tell you from personal 
experience that they have worked tirelessly for peace in the 
Great Lakes.
    Reasonable people, however, can disagree over tactics and 
over strategy, and it is in that spirit that I deliver my 
testimony today. I am going to focus my remarks on issues 
related to the Congolese peace process in the interest of a 
division of labor amongst my colleagues here at the table.
    Throughout the latest Congolese conflagration and previous 
cycles of conflict there, the root causes of war have not been 
addressed, leaving these peace processes, the endless peace 
processes to focus on flimsy power-sharing deals and 
arrangements that have undermined the sovereignty of the 
Congolese State and the professionalism and neutrality of its 
armed forces. This, in turn, has left the civil population of 
Eastern Congo subjected to globally unparalleled violence, 
perdition, and impoverishment.
    Another unrepresentative agreement between powerful 
interest with the biggest guns that we may see coming out of 
these Kampala talks might ease open fighting momentarily, but 
it lays a deeper foundation for further devastation and state 
deconstruction down the road. The United States should not be a 
party to such a short-term and destructive approach and must 
alter its policy to help avert an outcome that simply sows the 
seeds for further war. This hearing and your leadership, I 
believe here in Congress, will be an important building block 
for the kind of step-change that we are seeking from the 
administration and the broader international community.
    Here is the crux of it. The lack, I think, of a credible 
and effective and internationally mandated and leveraged peace 
process addressing these issues in Eastern Congo is becoming a 
major reason for that war's continuation. The current 
negotiation in Kampala between the Government of Congo and the 
M23 rebels is already making the same mistakes as its 
predecessor processes and will likely result in the same kind 
of short-term deal that keeps the Congolese Government in 
power, reduces international pressure on Rwanda and Uganda for 
backing the M23, and redivides the spoils of war. The root 
causes of structural violence will remain unaddressed and any 
agreement will lack the involvement of political parties, of 
representative civil society elements, including women and 
religious leaders and local armed groups representing the 
diverse voices and interests of Eastern Congo.
    The time has come finally for a real international peace 
effort, the kind that actually has a chance of ending the 
deadliest war globally since World War II, and the U.S. needs 
to help make that happen because if it is left solely to the 
combatants and their regional sponsors, it will not.
    We believe that two key pieces of the solution are missing 
now. For a lasting peace, a process needs to address those 
fundamental root causes, rooted in economic and political 
drivers of war.
    First the economic. A shared framework for the future must 
be agreed upon, in which the entire subregion of Central 
Africa, Congo first and foremost and at the center, can benefit 
much more from peaceful, legal natural resource development 
rather than the violent illegal extraction that exists today. 
Section 1502 of the Dodd-Frank bill, which this Congress 
heroically passed in the face of a lot of industry money and 
lobbying, a nascent regional certification effort, initiatives 
by some of the forward-leaning companies, electronics companies 
who have started working in support of real progressive change, 
and then new OECD guidelines, these are all catalyzing movement 
in the right direction, but more must be done to change the 
economic incentives from war to peace, just as cleaning up the 
blood diamond trade helped incentivize peace in West African 
countries.
    Coupled with strong international investment, these efforts 
will create the conditions, I think, for transparent and 
effective governing institutions. Dealing with the economic 
roots of war not only removes the main driver for the conflict 
today, but creates the main engine for state reconstruction.
    Second, the politics. A political framework for Congo must 
be agreed upon that restores public confidence and brings back 
the viability of the Congolese State while ensuring that 
further rebellion does not ensue. President Kabila faces a 
political crisis as a result of the failures of the army and of 
the elections last year, and the talks with M23 alone will only 
erode his authority and provide further insult and injury to 
the Congolese people.
    It is now time for a wider inter-Congolese dialogue in 
which leaders from the government, from political parties, and 
from throughout civil society across Congo actively participate 
and decide on a national consensus on reforms on key issues 
such as the political framework for the country, 
decentralization, protection of minorities, the return of 
refugees, and other issues that would be put on the table by 
the Congolese themselves.
    I have five recommendations for strengthening U.S. policy, 
some of which are echoing some of the good points that you all 
at the congressional table raised earlier. The first one, and 
foremost, I think, is the need to appoint this Presidential 
envoy, and I say Presidential because it needs to have that 
kind of rank. The current U.S. policy structure simply doesn't 
allow the United States to exercise its latent leverage, its 
creativity, and the international coordinating function with 
respect to supporting peace in Congo that we should be 
planning. If you appoint a Presidential envoy, that helps to 
rectify those problem. The envoy should be a high-level 
individual with experience and relationships in the region who 
will be responsible for developing a unified policy, the step-
change we are talking about, toward the regional crisis and be 
able to fully invest in helping to deepen this political, this 
peace process to address its current gaping deficiencies. Such 
an envoy, we hope, would leverage America's economic, 
political, and military influence to ensure that all parties 
fully cooperate with the international political process and 
work closely with the AU and the U.N. and the ICGLR.
    The second recommendation is one that everyone seems to be 
for, but it is not happening. That is to get a U.N. envoy out 
there as soon as possible. Everyone is saying that they want 
this, including, we just heard, from Ambassador Carson very 
encouragingly. But it wasn't in the United Nations Security 
Council resolution last week. The congressional letter that 
Congresswoman Bass referred to earlier couldn't be better timed 
in that regard. Both of these envoys will be appointed only, I 
think, if the Congress stays on this case and demands that we 
see these kinds of things happen.
    The third recommendation--again, I am echoing--we want to 
support robust United Nations sanctions against key people. The 
international community I think is--and this is terribly 
important for the peace process and for forward movement--we 
are leaving a huge reservoir of leverage on the table by not 
following the recommendations of the U.N. Group of Experts and 
others. There must be accountability for those who have 
restarted Congo's war and for those who are orchestrating or 
funding crimes against humanity and war crimes.
    As a responsible supporter of the United Nations sanctions 
regime, the United States should be compelled to push, to 
impose sanctions on all individuals identified in the U.N. 
Group of Experts final report, and those individuals and 
entities that are supporting the criminal networks, the mafia 
networks through the trade and natural resources. This won't 
happen, I do not believe, if Congress doesn't continue to pound 
away on this issue. So I think progress is, in part, in your 
hands.
    The fourth recommendation I would put forward is the 
importance, and this was well articulated in the discussion I 
think between Ambassador Carson and the congresspersons on the 
panel, we need to suspend certain U.S. assistance to any 
government supporting conflict and obstructing peace. That is 
military assistance for sure, but there are certain categories 
of bilateral non-military assistance, and particularly 
multilateral assistance, non-humanitarian aid to governments, 
whoever they are, who are supporting a conflict in Eastern 
Congo.
    Now, for example, if Rwanda and Uganda are found to be 
continuing their support for M23 and are supporting M23 efforts 
to obstruct a peace process, progress at the peace table, then 
corresponding measures should be taken by the U.S., other 
partner governments, and multilateral organizations to which 
the U.S. contributes huge amounts of American taxpayers' 
dollars. Let's be clear about this aid. We don't want health 
and education and microenterprise, the kind of small-scale 
assistance that goes to the people of Rwanda to be stopped. 
That aid should continue, I believe. But it is the budget 
support and military assistance, those two categories of aid 
that are critical. And it is the World Bank, the World Bank has 
$135 million on the table right now in budget support for the 
Rwandan Government. That should not be disbursed until we get 
clear forward movement on the peace process in Congo.
    Fifth, and finally, and this one hasn't been discussed yet, 
but we would call for a high-level summit on responsible 
investing in the Great Lakes. The United States, in partnership 
with the European Union, the African Union, could facilitate an 
international investment conference on investing in peace mines 
rather than the conflict minerals that exist today, in order to 
help expand the pie in the region for conflict resolution and 
for development in which all the people of the subregion can 
benefit, particularly and at the center, the people of the 
Congo.
    The summit could focus on developing market-based 
opportunities for responsible investment in Congo and the 
region. Again, we have got to turn those incentives away from 
illegal, extractive, violent mining, to peaceful, legal 
development that goes into the tax treasury, into the treasury, 
and funds development in Eastern Congo.
    Bob Hormats, an Under Secretary of State in the 
administration, could be a kind of person who could help 
spearhead that as someone who has helped build this public-
private alliance that involves companies and the United States 
Government and civil society, trying to help promote 
responsible investment, spurred on by 1502 from the Dodd-Frank 
law.
    Conclusion, my bottom line is this, in two sentences. A 
credible, internationally driven peace process that deals with 
the root causes and includes broader Eastern Congolese civil 
society won't absolutely guarantee peace, but its absence, 
however, absolutely guarantees war. Thank you very much.
    Mr. Smith. Thank you very much, Mr. Prendergast.
    [The prepared statement of Mr. Prendergast follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Dizolele.

      STATEMENT OF MR. MVEMBA DIZOLELE, PETER J. DUIGNAN 
  DISTINGUISHED VISITING FELLOW, HOOVER INSTITUTION, STANFORD 
                           UNIVERSITY

    Mr. Dizolele. Chairman Smith, Ranking Member Bass, and 
members of the Subcommittee on Africa, thank you for the 
invitation and honor to testify before your committee. I come 
before you as a Congolese and concerned U.S. citizen. The views 
I express today in the statement are mine and mine alone.
    This important hearing comes at yet another critical time 
for the Democratic Republic of the Congo, and I would like to 
commend you for your interest in my home country.
    Congo is too big to fail, and the U.S. should care today 
for the same strategic and security reasons it did during the 
Cold War. With its mineral and other natural wealth, DRC is the 
equivalent of the world's breadbasket of critical resources. At 
this time of Chinese scramble for resources, we cannot stand 
idle and let Uganda and Rwanda destabilize the heart of Africa. 
Measured in human lives, the cost of their military 
adventurism, which has indirectly killed over 6 million 
Congolese, now rivals King Leopold's holocaust. Ironically, 
Rwandan President Paul Kagame blames King Leopold for the 
current crisis.
    Substantial U.S. military assistance to Rwanda and Uganda, 
and Washington's reluctance to denounce and stop the support 
for these regimes, makes the U.S. an accomplice to the tragedy.
    Today the greatest challenge and obstacle to resolving the 
crisis in Congo is neither the confusing alphabet soup of 
militia names, nor the lack of engagement of the international 
community. Rather, it is the lack of understanding of the 
drivers and dynamics of the conflict that stands between 
policymakers like yourselves and the right prescriptions.
    For two decades the policy discourse on DRC has been 
defined by a narrative that focuses on the ramification of the 
problem, such as ethnic identity, citizenship issues, sexual 
violence, looting of natural resources, but ignores the root 
causes of the crisis. While the problem is often viewed as a 
humanitarian disaster, which it is, DRC is paralyzed by a 
political crisis which requires political solutions and that is 
where you can have the greatest impact.
    Congo has been muddling through a series of crises for 
nearly two decades. The causes, of course, are well known: An 
inept government with a weak leadership, no articulated vision, 
no legitimacy after the botched 2011 election, lack of capacity 
to resist or contain predatory designs of neighbors, i.e., 
Rwanda, Uganda, and Angola, proliferation of armed groups, and 
an underachieving and over-politicized U.N. peacekeeping 
mission.
    This cocktail of problems is topped by an apathetic 
diplomatic community motivated by short-term interests of the 
countries it represents, rather than the long-term 
stabilization of Congo and Central Africa.
    The M23 rebellion is to be understood through this optic. 
As the M23 crisis enters a new phase with the withdrawal of the 
rebels from the battered city of Goma, the people of North Kivu 
and their fellow Congolese citizens everywhere wonder whether 
the storm has passed or the rebels' retreat represents the 
quiet before a super storm. Either way, telltale signs and 
history indicate that the conflict will continue unless 
appropriate deterring measures are taken.
    M23--like its precursor, the CNDP of Laurent Nkunda--and 
the dozen armed groups roaming the hills of eastern provinces, 
expose Congo as a dysfunctional state with weak political 
leadership and lacking a competent army and security 
institutions. With the failing of the state, old latent 
community grievances stemming from land disputes, demographic 
pressure, ethnic tensions, and control of resources and trading 
routes has turned Eastern Congo into a tinderbox. This means 
that ambitious war entrepreneurs and demagogues only need a 
cause and find a sponsor--it can be a community, a business, 
political elite or a state--to start a militia.
    The M23, which is primarily a Tutsi mono-ethnic armed 
group, sought to exploit these dormant grievances, citing 
discrimination against Tutsis as one reason for the rebellion, 
but they failed to generate support from important Tutsi 
communities, such as the Banyamulenge who have so far refused 
to join M23. Instead, the Banyamulenge are serving with the DRC 
Army and fighting the rebellion.
    The rebellion had also threatened to take over Goma and 
march on Kinshasa and liberate the DRC. But when Goma fell to 
M23 elements, spontaneous protests broke out in Bukavu, in 
Kisangani, and Kinshasa, denouncing Kinshasa's failure to 
protect the city and exposing even a greater ire against the 
rebellion and the United Nations Stabilization Mission, 
MONUSCO.
    While it may be too early to draw meaningful conclusions, 
M23's failure to rally other Tutsis who had previously 
presented a common front may signal the beginning of a new era 
of trust building between ethnic groups. After two Presidential 
and legislative elections that empowered the Congolese to seek 
change through the ballot instead of at the barrel of the gun, 
M23 has no popular appeal.
    But the highly controversial and contested 2011 
Presidential and legislative elections eroded the legitimacy of 
President Kabila, making it impossible for the government to 
mobilize the masses in this time of crisis.
    M23 rebellion further exacerbated the legitimacy crisis by 
exposing the state's inability to protect its citizens. The 
government has failed to build a professional army, perhaps the 
single most important element in ensuring Congo's territorial 
integrity, and the security of its citizens and coveted natural 
resources.
    Without such a competent military, DRC is unable to stop 
the proliferation of militias. Instead, the Government of DRC 
has chosen to compromise with militiamen and co-opt them into 
the army with no disruption of their ranks and files. The lack 
of an adequate military integration program has resulted in the 
establishment of parallel commands and structures in the 
national army. This means that the militias who join the 
national army remain in their areas of control and keep their 
command nearly intact. This arrangement allows the former 
militiamen to perpetrate abuses on the civilian populations and 
keep their access to local resources, all under the protection 
of the Congolese military uniform. This integration model 
enabled disgruntled ex-CNDP elements stationed in North and 
South Kivu to mutiny and launch M23 when DRC ironically sought 
to arrest their commander, General Bosco Ntaganda.
    The predatory designs of neighboring Rwanda and Uganda also 
fuel the volatile situation as we have heard before. Both 
Rwanda and Uganda invaded Congo twice, with continued 
incursions into Eastern Congo where they still support 
militias. Several U.N. reports, as we heard Steve Hege say a 
few minutes ago, have linked both countries to Congolese 
militias and the looting of resources. And of course, now they 
are linked to M23.
    Both countries have denied the charges and insist that they 
are wrongfully accused and used as scapegoats for the DRC 
Government's failures. Their denial and deceit, however, 
undermine the chances for lasting peace. It is impossible to 
solve the crisis when the parties to the conflict refuse to 
assume their share of responsibility. When you invade your 
neighbor twice, arm militias, support rebellions, loot its 
resources, and indirectly cause the death of over 6 million 
Congolese, you are not a scapegoat. You are a serious problem.
    So we know the primary supporters of the militias, and 
whether they be in Congo or in neighboring countries or 
overseas. We also know the primary routes of the illicit export 
routes, and which neighbors profit from. So what should the 
U.S. do? I think that is probably what is of most interest to 
you. Number one, we need to unequivocally support security 
sector reform for the reasons we have heard today, from my 
colleagues and from the Assistant Secretary. Reform is long 
overdue. But reform means serious commitment to rebuilding a 
new army, and not cobbling together old militias and new units. 
Millions of dollars have been invested in training, but not 
enough attention has been devoted to the reconstruction of the 
military.
    Unfortunately, these initiatives amount to very expensive 
window-dressing. For instance, the Belgian-trained elite units 
that fought M23 early in the spring did not receive the 
institutional support they needed to succeed in their mission. 
U.S. AFRICOM has also trained a unit which could have made a 
positive contribution in North Kivu in another context, had the 
leadership and the structure been different.
    The current broken military structure cannot absorb newly 
trained units effectively. Real military reform requires that 
we break down the old decrepit foundation and build a new army 
from scratch. And such a reform process will phase out and 
discharge top commanders who came from militias, as well as 
former militiamen who now fill the ranks. We cannot put new 
wine in old vases. They will break.
    So, number two, we need to implement U.S. law. The 
Congolese, like many other people in the world, look up to the 
U.S. as a beacon of principles and leadership. There is a law 
passed by then-Senator Barack Obama, we have mentioned that 
already, called the Democratic Republic of the Congo Relief, 
Security, and Democracy Promotion Act. This bill includes 
provisions on conflict minerals, sexual violence, sanctions on 
armed groups and their state sponsors, and so far, we have 
hardly scratched the surface of this law. It still baffles 
people. It definitely baffles the Congolese.
    Number three, we need to activate the State Department 
Reward to Justice Program. I think we need to encourage 
associates of militias who are trying to get out of the system 
to turn on their colleagues who are keeping them in the system. 
It is very much like a gang mentality where once you are in, it 
becomes very difficult to get out, especially if that is based 
on ethnic affiliation.
    Number four, we need to apply sanctions against individuals 
and institutions identified in the reports. I commend the U.S. 
Government and the Congress for the recent initiative to 
sanction leaders of M23, but it will not serve the intended 
purpose. If we sanction Makenga, we sanction Bosco Ntaganda or 
anybody else and will not sanction the backers in Rwanda or 
Uganda or where else they may be, then the game will continue. 
If Makenga becomes a burden, he will be replaced. When Nkunda 
became a burden, he was arrested and replaced with Bosco. So 
tomorrow it will be somebody else, and I think we cannot act 
like we are doing something impactful when in fact we are just, 
again, doing window dressing like with security sector reform.
    And then number five, we need to push for the completion of 
the electoral process and opening of the political space. We 
have talked about Rwanda and Uganda, but the big elephant 
really is Kinshasa. Eastern Congo often is discussed as if it 
were a country. Eastern Congo is not a country, it is part of a 
larger country called Congo. The crisis that is taking place in 
the Kivus in Eastern Congo has its roots in Kinshasa, in the 
failure of that leadership. For the last 5 years, from 2006-
2011, the Congolese have been emboldened by the electoral 
process. We have not stood, we, meaning the international 
community, have not stood up with the Congolese to fight that.
    We need to open that process so that the botched electoral 
system would move forward. We need to support the holding of 
the municipal and provincial elections. At this point, both the 
national senate and the Electoral Commission are serving 
without any mandate. So until that happens, we have a system 
that has no legitimacy.
    Then last, we need to insist on the restructuring of the 
Independent National Electoral Commission. They are part of the 
problem. We looked the other way when the system was botched. 
We cannot move on without this change. This is why President 
Kabila cannot really speak with the backing of his people. This 
is why when people riot against M23, they also automatically 
riot against Kabila, and that cannot continue.
    Then, finally, I would like simply to say that this 
conflict has gone on too long. It has gone on too long. It 
challenges now our morals and principles as a country. We 
cannot talk about democracy, we cannot be outraged about sexual 
violence when, in fact, we are not taking the steps to stop 
this. In Congo, armed groups and their international and local 
backers are the enemies. But there is an even greater enemy, 
and the greater enemy is the Congolese Government in its 
failures. It is also the Congolese army, which itself is a big 
tapestry of different militias. When you are in Congo and you 
see, if you want to talk about insecurity, I define insecurity 
as the feeling you get in your gut when you see somebody in 
uniform in front of you. Thank you very much.
    Mr. Smith. Mr. Dizolele, thank you so very much for your 
testimony.

    [The prepared statement of Mr. Dizolele follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. All three of your testimonies were 
extraordinarily incisive, certainly timely, and prescribed a 
way forward for the administration as well as for Congress, so 
for that, our subcommittee is deeply grateful for your presence 
here today and for sharing with us not only your understanding 
of the situation on the ground but what ought to be done 
perhaps to truly rectify it.
    I think the emphasis on root causes couldn't be more timely 
as well. I will never forget years ago, in the early days of 
the war in Yugoslavia, I, along with Congressman Frank Wolf, 
went to Vukovar and other places in Croatia after it had been 
devastated, and then we went to Belgrade and met with Slobodan 
Milosevic and others within that dictatorial government of his, 
and I will never forget getting a map of a greater Serbia that 
included Bosnia and Croatia, and the lack of understanding on 
all of our part about what the end game was was appalling. We 
thought this was something that would abate over a short period 
of time, and I think, Mr. Hege, your point about the key goal 
of establishing an autonomous state is largely 
underappreciated, and perhaps our other two distinguished 
witnesses might want to speak about that. You point out that 
Rwanda's deeply ingrained federalist vision is born out of the 
geopolitical regional strategy adopted by Kigali's leadership. 
A federal autonomous state for the Eastern Congo would cement 
and guarantee Rwanda's already extensive influence over 
military, political, economic, and cultural aspects of life.
    And I think that is underappreciated almost in the extreme 
as to the why of it. We know the mineral wealth is an engraved 
invitation to looters and thieves, you know, to do what they 
do, but this idea that it is part of the government's overall 
strategy, perhaps you as well as our other very distinguished 
witnesses might want to elaborate on.
    Mr. Hege. Thank you, Mr. Chairman. On the question of the 
Rwandan strategy for creating or spawning an autonomous state 
for the Eastern Congo, a few things that I would like to 
mention as well in terms of timing. Some of my colleagues here 
have mentioned the cyclical nature and the numbers of wars that 
have taken place in Eastern Congo. It appears that the Rwandan 
backers of M23, the real masterminds that orchestrated the 
creation of the rebellion were looking toward the post-
electoral period precisely for the reasons that Mvemba 
described, the discredited 2011 Presidential elections as a 
period where they would be able to mobilize an eastern common 
front against a delegitimized Kinshasa and President Kabila 
himself. This was certainly a part of their calculations about 
why to push for this now.
    Also the question of the CNDP's cycles of impunity and the 
fact that the international community was increasingly 
resistant to allowing their capacity to control parallel chains 
of command to have access, unfettered access to illegal trade 
in natural resources. They understood that this was a time in 
which that, those networks could be curtailed, that Kinshasa 
could attempt to curtail them, and that they would need to 
capitalize on that, on those assets before any of those 
individuals were eventually redeployed out of the Kivus or in 
the case of Bosco Ntaganda that he would have been arrested 
himself.
    The third element that I think that they took into account 
in preparing this strategy, because it was quite well prepared, 
we have extensive evidence that shows Makenga himself back all 
the way in 2011 was amassing huge amounts of weapons at his 
home and in numerous arms caches in preparation for a return to 
war precisely after the elections, but the Rwandans also 
understood that there was a generalized Congo fatigue, as it is 
often described, that there is a sentiment that Congo is sort 
of always a mess. President Kagame, I have been told by Rwandan 
diplomats, likes to say that the Congo has been a mess before 
he was born and will be a mess infinitely or indefinitely.
    Certainly within the U.N., there are member states that are 
questioning the strategy on the Congo, how long can they 
continue to foot the bill for a peacekeeping mission which is 
so costly, and should we start to think of more radical 
solutions, definitive long-term solutions for the Eastern Congo 
and whether the current governance structure is a viable one. I 
think that Rwanda felt that that was a right period to push for 
this, and that unfortunately their success on the battlefield 
recently would likely embolden them to continue to drive for 
this end game, and any other issues, smokescreen issues on the 
table in political talks would only prolong this process until 
they can get to that key and core issue.
    Mr. Prendergast. I want to add to what Steve said and then 
Mvemba will have something, too, of course. I will do my three 
points: Security interests, economic interests, and political 
interests that the Governments of Rwanda and Uganda have in 
Eastern Congo and why there continues to be intervention, both 
direct and indirect, by the neighboring governments in Eastern 
Congo.
    Security first. Rwanda has been legitimately concerned over 
the last 18 years since 1994 about the possible strengthening 
of the FDLR. They want to ensure without any doubt that the 
FDLR cannot come back and threaten Rwanda. And then in that 
context, can't allow a strong Congolese state that might 
provide support to the FDLR. For the Ugandans, they will say it 
is the ADF, and we have talked, we have heard already some back 
and forth with Ambassador Carson and the committee on that.
    There is a second role, issue, the economic issues that I 
think are deeper than the security ones. Rwanda has benefited 
massively over the last decade from the looting of natural 
resources in Eastern Congo, particularly, and this is why this 
whole campaign in the United States has unfolded particularly 
amongst young people on college campuses, this conflict 
minerals campaign because everyone is somehow complicit in 
this, all of us that buy cell phones and laptops and other 
electronic instruments are helping to underwrite this smuggling 
network and these competing mafias that are ruining and 
continue to immiserate the people of Eastern Congo.
    Tin, tantalum, and tungsten are the three minerals today. 
There were others decades ago, and going all the way back to 
King Leopold, that looting that goes across borders that 
benefits us with no protections for the Congolese people. It is 
a huge windfall for Rwanda. Foreign exchange, balance of 
payments, all the rest of it drives their economic development 
miracle, post-genocide economic miracle. In Uganda it is gold, 
it is smuggled gold. Huge amounts of gold travel across the 
border illegally from Congo into Uganda and are then exported 
out of the country. These are, again, windfalls that are hard 
to replace by domestic economic development.
    Then the third arena, the third issue is political. Both 
Uganda and Rwanda I think, the bottom line, want proxies in 
positions in Eastern Congo, whether they are military or 
civilian authorities, to ensure their economic and security 
interests. So when President Kabila tried after the elections 
to redeploy the CNDP elements, as Ambassador Carson was 
describing, he described all the facts of what happened, but 
what was underneath the facts, I think, was that the CNDP had 
established for years with Rwanda and Uganda, particularly 
Rwandan support, this ability to export illegally and extract 
natural resources and ensure the political and security 
interests of the State of Rwanda. And so when Kabila, when 
President Kabila tried to redeploy these forces out of that 
region, which would have undermined that control, that proxy 
control that the neighboring countries have over the politics 
and the economics of the east, the rebellion immediately 
occurred because they couldn't allow that to happen, so of 
course, the Rwandan support comes pouring in into the formation 
of the M23. They change the acronyms, it is the same group.
    Whittled down, though, Mvemba's points are very important 
about the lack of any kind of domestic constituency that the 
M23 have, but nevertheless the result is the same. It is more 
destabilization, more instability, and then allowing those that 
have powerful proxies inside Eastern Congo to profit from that 
destabilization.
    Mr. Dizolele. Thank you, Mr. Chairman. Just a couple 
points. One is on the peacekeeping mission. We have brought up 
MONUSCO a few times today. I think MONUSCO is now part of the 
problem. It has become an enabler of insecurity just like 
Rwanda and Uganda and the government in Kinshasa in the sense 
that, you know, part of the challenge when we look at Congo, is 
that a lot of people discovered Congo with the 1994 genocide in 
Rwanda, but Congo existed way before that. Those of us who were 
born there and grew up there knew a country that worked. So 
when we go to Congo today, we don't recognize this country. 
That does not mean the Congolese people are not capable. Some 
of you are old enough to remember the first U.N. mission in 
Congo, ONUC. ONUC was much more bolder, robust but also very 
determined to carry out its mandate. It lasted only 4 years.
    The war in 1960 was much bigger than what we are seeing 
today. You had Che Guevara show up in Congo, you had the 
Chinese, you had the Egyptians, you had French mercenaries, and 
the Belgians who wanted Katanga. But because ONUC was really 
committed in helping the Congolese meet their obligation to 
protect their country and build it together, they fought, they 
protected the civilians, and they allowed then Colonel Mobutu 
to build an army that eventually became the country, the army 
that the U.S. relied on in Angola, in Chad, when somehow Congo 
was your strategic ally.
    I am not sure what happened, but I simply mean that we need 
to scale down that MONUSCO mandate very quickly, make it very 
clear how much longer they are going to stay in Congo, and what 
the mission should be so that the Kinshasa government does not 
lean on the U.N. for excuses.
    So let me illustrate. If 200 women are raped in some hamlet 
in North Kivu, the headlines in the New York Times will say 
some women were raped, in fact, but the blame will fall on the 
U.N. first. They will say there was a contingent of Bangladeshi 
troops around that didn't do anything. No one will ask where 
was the Congolese army. And we can do that because there is a 
force there that is supposed to help that is falling much 
shorter.
    The U.N. has failed to protect civilians throughout this 
entire M23 event. They failed in Bunagana, but the press was 
not there to report it, so they are going to just live with 
M23. When Rutshurv and Kiwanja fell, MONUSCO forgot that in 
2008 there had been massacres there by CNDP. They didn't do 
anything. They said we will absolutely protect Goma, Goma will 
not fall. Well, then when Goma fell, they say we didn't fight 
because they didn't want to endanger civilians. And then when 
M23 withdrew and they raided Kibumba, Mugunga, and Kibati IDP 
camps, the U.N. was nowhere to be seen. So going on nearly two 
decades, the U.N. is not the solution for the DRC. Thank you 
very much.
    Mr. Smith. Ms. Bass.
    Ms. Bass. I am going to unfortunately have to leave at this 
point, but I want to thank you all for your testimony and the 
time you took out to come, and I look forward to continue to 
work with you, and especially to follow up on what we can 
specifically do here in Congress and I am most interested in 
the notion of sanctions and also sanctions on individuals and 
how that might work and how we might get that started from 
here, so thank you very much, and thank you, Mr. Chairman.
    Mr. Smith. Thank you. Mr. Marino.
    Mr. Marino. Thank you, Chairman. Welcome, gentlemen. Thank 
you for being here. Most of us in the room here know at least 
one measure that must be taken against Rwanda and Uganda, and 
that is considering the enactment of serious stinging 
sanctions. However--and let's call this the way it is, you 
know--the Obama administration refuses to engage in serious 
monetary sanctions against these countries, and this is not 
atypical in other foreign affairs matters that plague the world 
today with this administration.
    So my simple question is, what do you propose that we do or 
that you can do to persuade this administration to enforce 
these sanctions the way that it has been so eloquently stated 
here today from you gentlemen and from this panel? So you can 
start, Mr. Hege, and each one of you, could you respond to 
that, please.
    Mr. Hege. Sure, I can speak from the perspective of the 
Group of Experts. We submit annually a list of recommended 
individuals and entities for consideration before the U.N. 
sanctions committee. Obviously the United States Government 
plays an important role in taking forward and studying those 
names. Many of those names, while the list remains 
confidential, many of those names are included in our public 
reports, so there is not a great deal of surprise of the 
contents of that list.
    However, the group itself steps away from the consideration 
and discussions of the list that it provides, so in essence, we 
remain sort of indifferent to the steps that are taken 
subsequently. However, I can say, having stepped away from my 
role in the Group of Experts, that measures to identify the 
individuals and sanction the individuals who are externally 
supporting M23, and in our conclusion they are not necessarily 
just externally supporting, they are actually commanding and 
running the rebellion in its day-to-day activities, which goes 
beyond external support in many cases. That measures to 
identify them, be that sanctions, be that diplomatic pressure, 
all of that is critically important in identifying the problem.
    As I said, Rwanda continues to identify itself as the 
solution. However, sanctions or efforts to identify publicly 
the individuals running the rebellion in the Rwandan Government 
would go a long way to ensuring that the problem is squarely 
understood as a Rwandan orchestration, as a Rwandan-driven and 
commanded rebellion, and that will have enormously important 
consequences for any peace negotiations in terms of framing the 
issue and not necessarily getting lost in, as I said, some of 
the smokescreen issues that have been post facto used as 
pretext to justify the rebellion. So I would encourage any of 
those measures and any symbolic efforts that can be made to 
ensure that the problem itself is squarely identified partly as 
a Rwandan-driven rebellion. Thank you.
    Mr. Marino. Thank you. Mr. Prendergast.
    Mr. Prendergast. Thank you. There has been an amazing 
amount of continuity, I think, in U.S. policy going back to the 
Clinton administration, Bush administration, Obama 
administration. All three very, very slow to utilize pressures.
    Mr. Marino. Agreed.
    Mr. Prendergast. It has been an incentive-based policy. 
This is a long-term problem, a belief I think fundamentally--we 
heard it from Ambassador Carson very clearly today--a belief in 
quiet diplomacy and in direct engagement in what I would call 
in the conflict resolution theory an insider partial model that 
has been pursued, and I think the response to that, I will give 
my recommendations as to what Congress can do to help the 
situation, and then say what we can do as civil society groups 
on the congressional side, I think publicizing the failure of 
this 15-year policy.
    Again, what has been so effective about Congress' work, it 
has been bipartisan. The failure has largely been bipartisan, 
so a bipartisan effort in Congress saying it is not working, we 
need to do something differently is crucial. That can be done 
through the media and through, I think, the contact with--
direct contact with administration officials. The letter that 
is circulating, there are numerous I think initiatives, both in 
the Senate and the House, right now attempting potentially to 
pass a quick resolution before the end of the term.
    There are various things that could be done to put this 
very clearly on the public record, this 15-year failure of 
constructive engagement, which is where we are going now as we 
bring that kind of terminology that has been used in other 
contexts and talk about this. We need more, we need to utilize 
those sticks.
    For our part, the NGO community, the civil society 
community, the letter that was cited by Congressman Smith at 
the opening is an example of how groups that work on all kinds 
of different issues internationally are coming together and 
saying let's unify our voices around a certain set of points 
and an agenda that can press the administration to become more 
bold in its approach, and we will undertake, as will other 
groups, The Enough Project and many other groups, a series of 
campaigns going out, particularly to young people, to faith-
based groups and others who actually care about what is 
happening in the Congo, and that I think constituency of 
conscience is actually expanding fairly rapidly on Congo, just 
as we saw in 2003, 2004, 2005 on Darfur, we are starting to see 
that now in Congo, and the more I think Americans care about 
what is happening to the people of Congo and say, you know 
what, the present, the status quo is just simply unacceptable, 
and U.S. policy, the more, I think, we will have a shot at 
altering that status quo.
    Mr. Marino. Thank you.
    Mr. Dizolele. Thank you, Congressman Marino. That is an 
important question. I think all of us today who spoke to you, 
including Ambassador Carson, mentioned all the ingredients that 
need to be put in place. I think on one side you have the 
government that refuses to call a spade a spade, so we talk 
about external threat, external support. If it is external, 
then we know where it is coming from, we should be able to name 
it. But I think we have talked about everything. So personally 
I would say one recommendation in order to put pressure on the 
Obama administration--the U.S. Congress has always been at the 
forefront of certain watershed events in Congo and Africa.
    It was this House that passed the anti-apartheid bill, it 
was this House that supported the emergence of the democracy 
movement across Africa in the 1980s. I think the chairman was 
around. So I think one recommendation I will say, because 
Africa is always a very bipartisan area, maybe you should 
consider passing a robust, more robust version of the Obama law 
here that you can push then to be applied because I am not sure 
why the White House, and the State Department are shying away 
from that and decide to hide behind the economic miracle of the 
Rwandan recovery. It is very troubling because this is what 
happened with King Leopold. He was a great philanthropist, he 
was bringing civilization to the savages in Congo, he was 
saving them from slave traders. Look at this great global trade 
outpost called Congo. But then behind the shadow of that 
civilizing mission, they were chopping off people's limbs, 
killing people, over 10 million of them.
    Something similar is happening today. We have laws on the 
books. People are speaking, good people like you listening to 
us, but nothing is happening. So I think you have community 
leaders like John, who has rallied thousands of millions of 
young people to push Congo causes, have been listening to us, 
then I think we need your support so that the other side can 
start listening to what we ask because the interest is already 
there. Thank you very much.
    Mr. Marino. I think I am right in saying that you do agree 
with me, each of you, that the previous administrations and 
this administration know what the facts are, know what is going 
on. I mean, they are not ignorant to these facts. I mean, it is 
very blatant. But they chose and choose not to do what should 
be done about this.
    So, Mr. Prendergast, I think you are absolutely right in 
getting more people involved, particularly young people. I am a 
freshman, next year I am coming back as a sophomore, and my 
daughter and I had the opportunity to visit the continent of 
Africa. We went to Liberia and Ghana. My daughter is going to 
be a physician. But she said, ``Dad, we have to take care of 
these people, we have to help them, and if we do not do it, who 
is going to?'' So you know, it is like banging my head against 
the wall sometimes. I have signed numerous letters that have 
been sent to the administration and the secretaries. We never 
get a response from them. So maybe we do have to take this 
more, with more passion to the public to get our Government to 
respond to it. You can be assured that my daughter and I will 
be there doing it. Thank you. I yield back.
    Mr. Smith. Thank you very much, Mr. Marino. Let me just ask 
one final question, and then I will leave any final comments to 
our three distinguished witnesses.
    Mr. Hege, there have been reports that at least one U.N. 
Security Council member wanted to delay the report on Eastern 
Congo this summer to perhaps lessen its criticism of the role 
played by Rwanda. Can you definitively tell us is that true or 
not?
    Mr. Hege. Yes, thank you, Mr. Chairman. We submitted an 
interim report during the month of May which did not include 
information regarding arms embargo violations committed by the 
Government of Rwanda, precisely because those violations had 
just really manifested themselves more overtly. However, we 
briefed the sanctions committee of those, of the information we 
had gathered in June and suggested that we provide an 
additional annex to that report, that interim report, outlining 
the violations of the arms embargo by the Government of Rwanda.
    The committee requested that we engage once again with the 
Government of Rwanda, although we had already gone to Kigali in 
May to meet with them over a period of 3 days during which they 
refused to accept us for any substantive meetings. We remained 
in our hotel room for those 3 days. The committee asked us to 
provide, particularly the Minister of Foreign Affairs--the 
Rwandan Minister of Foreign Affairs at the time was coming to 
New York at the end of June. I personally met with her in New 
York.
    I presented to her our work, our methodology, our approach, 
the reason why this information had not been included in the 
interim report. I outlined in detail our findings, and at that 
stage, she declined to provide any response, explanation or 
justification of those, of our findings. As such, we proceeded 
to submit that document, and it was then made public as an 
addendum and not an annex to our interim report.
    So the answer to your question is, yes, as a committee the 
consensus of the committee was that Rwanda, the Rwandan 
Government, its request to have an additional right of reply 
should be granted by the group, and out of good faith in 
working for and under the guidance of the sanctions committee, 
we provided them with that opportunity. They declined to 
provide any right of reply, and unfortunately proceeded to make 
public statements that nevertheless, they had never been 
provided a right of reply, which for us, obviously, is quite 
frustrating, given that we purposefully delayed the submission 
of that information in order to engage in this dialogue with 
the Government of Rwanda.
    So we, as I said, proceeded to submit that, and that report 
then was published at the end of June.
    Mr. Smith. Thank you. Any final comments from any of our 
distinguished witnesses?
    Mr. Dizolele. Mr. Chairman, thank you. I just want to 
mention two things. I originally at the outset said Congo is 
too big to fail. There are quarters of enlightened people, 
smart people, you know a couple weeks ago, the New York Times 
ran a piece saying Congo should be split in half or in various 
portions. Anybody who entertains that idea is smoking 
something, because if Rwanda, as small as it is, has trouble, 
we know Rwanda would be the ideal country if I were a leader: 
Everybody speaks the same language; they have the same name; 
and they have two castes, the Hutus and the Tutsis. Yet, they 
have been killing each other over and over.
    If Rwanda thinks or if anybody thinks Rwanda can control 
the Kivus, then we have not seen the half of it. The Kivus are 
not Rwanda, is not the same makeup, they don't know these 
people. The Rwandans tried to march all the way to Kinshasa, 
and they were kicked out of Kinshasa by the civilians in 1998, 
which led them to do the rebellion.
    So this is an idea that we should resist by all means, so 
anybody who is entertaining that will have blood on his hands, 
and he doesn't know the half of it.
    Number two, I think we need to stand for something. In DRC, 
the people of Congo have already rallied around the democratic 
principles. They are waiting for your support. The Congolese 
don't need help changing things. They need help to push the 
process along. They are very capable people, they are 
resourceful, and I would like, on their behalf, to thank you 
for your continuous interest in their plight. Thank you.
    Mr. Smith. Thank you.
    Mr. Prendergast. My last point, Congressman Smith and 
Congressman Marino, would be that we have, today, I think a 
clash of two visions of policy. One vision is a belief that I 
think we need to encourage the neighboring countries of the 
Congo to become part of a solution, and thus sanctions and aid 
cutoffs and those kind of things, punitive measures would 
undermine our influence. So that would be, I think, at this 
juncture what the administration and past administrations have 
pursued vis-a-vis Congo and the continuous intervention cycles 
that we have seen from outside from the region.
    The alternative belief that I think this table has 
articulated and the committee, key members of your committee 
have articulated as well, is that these kinds of punitive 
measures which, by the way, involve withholding hard-earned 
U.S. taxpayer dollars for the kinds of support that are 
fungible, military and budgetary support. We are not talking, 
again, about the development and humanitarian assistance that 
goes straight to the people of Rwanda but, rather, the budget 
support that goes to the countries, the government. That if we 
utilize these punitive measures, that that will provide 
leverage for a solution, and if we are successful, I think, in 
convincing the administration to move in that direction, which 
I believe we will work assiduously to do, then we need to have 
somewhere for Rwanda, Uganda, and other elements in the Congo 
that don't want a solution, we need to have a place for them to 
go, and I believe that place is a legitimate, credible, 
internationally supported peace process that allows the Eastern 
Congolese people to be part of the solution at the table, and 
the root causes finally to be addressed, and it is not going to 
happen unless we get U.S. leadership, and that is why we need 
that Presidential envoy. Thank you so much.
    Mr. Hege. Just to conclude, there is a great deal of 
analysis of Rwandan Government behavior which concludes that 
essentially their sticks don't work, that they are very 
ambitious, very determined, and that any punitive measures will 
not necessarily deter their behavior. There is likely a great 
deal of evidence. Since our reports in June exposed their 
direct creation of M23, the rebellion has only grown and their 
involvement has only become more overt, and I would say many of 
their commanders have become more emboldened. Obviously the 
taking of a very important provincial capital such as Goma was 
a perfect example of that.
    However, that doesn't mean, as I said earlier, that we 
shouldn't continue to frame the problem as a Rwandan determined 
effort to obtain this objective, which is, as I said, an 
autonomous Eastern Congo. They believe that any of the short-
term consequences of their current project may be outweighed by 
the gains of that state, particularly, as I said, given the 
wealthy economic interests that Rwanda has in Eastern Congo, 
the cultural ties, and the security interests that they would 
be able to ensure, including the FDLR and other political 
dissidents.
    However, that said, what is needed at this point in order 
to, faced with that Rwandan determination, a peace process will 
have to find a way to identify a solution which appears to 
appeal to their long-term objective in order for them to stop. 
I am not convinced that anything less at this stage than 
something close to that long-term objective would call the 
Rwandans to stop.
    However, if that solution is identified, it could be some 
sort of decentralization process, as already stipulated by the 
Congolese constitution. However, that, the implementation of 
that agreement will require significant accompaniment, 
tremendous long-term investment not only from the United 
States, but other members of the international community to 
reinforce the capacities of the Congolese state and precisely 
insulate it from external control and manipulation, and that 
will be, as I see, practically and realistically, one of the 
keys to moving forward from this current crisis, but it 
requires, as I said, a very long-term commitment to building up 
an economically and politically independent Congolese State in 
the Eastern Congo, where its neighbors will eventually look at 
it as an equal and not a country which it can continue to 
manipulate, they can continue to manipulate and benefit from.
    Mr. Smith. Thank you, all three, for your extraordinary 
insights again and testimony, and I do want to thank C-SPAN for 
in their editorial and independent judgment seeing their way 
clear to cover this hearing because people in America know far 
too little as to what is going on in DR Congo, and as you 
pointed out earlier, the enormous loss of life, 6-plus million 
people who have died, and the fact that as we speak people's 
lives are being taken from them by this terrible rebellious 
M23. So thank you so much, and this hearing is adjourned.
    [Whereupon, at 5:53 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
                     <F-dash><func.-of><Register>\

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
   chairman, Subcommittee on Africa, Global Health, and Human Rights

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
